<html>
<title> - THE PLIGHT OF THE MONTAGNARDS</title>
<body><pre>[Senate Hearing 105-465]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-465
 
                     THE PLIGHT OF THE MONTAGNARDS

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                     U.S. GOVERNMENT PRINTING OFFICE
47-164 CC                    WASHINGTON : 1998





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              



                                                                   Page

Dr. Nguyen Dinh Thang, Executive Director, Boat People S.O.S., 
  Fairfax, Virginia..............................................    19
Rong Nay, Assistant Director, Montagnard Foundation, Montagnard 
  Human Rights Group, Cary, North Carolina.......................    22
Roth, Hon. Stanley O., Assistant Secretary of State for East 
  Asian and Pacific Affairs......................................     3
Sommer, John F. Jr., Executive Director, American Legion, 
  Washington, D.C................................................    15
Taft, Hon. Julia V., Assistant Secretary of State for Population, 
  Refugees, and Migration........................................     4
Y Hin Nie, President, Montagnard Dega Association, Incorporated, 
  Greensboro, North Carolina.....................................    24

                                Appendix

Prepared statement of Hon. Stanley O. Roth.......................    31
Prepared statement of Hon. Julia V. Taft.........................    32
  Responses to Additional Questions Submitted for the Record to 
    Assistant Secretaries Roth and Taft..........................    34
Prepared statement of John F. Sommer, Jr.........................    45
Prepared statement of Dr. Nguyen Dinh Thang......................    49
  Petition requesting the Administration to withhold waiving the 
    Jackson-Vanik Amendment for Vietnam..........................    51
Additional material submitted for the record:
  Letter submitted by Senator Bob Smith of New Hampshire.........    53

                                 (iii)

  


                     THE PLIGHT OF THE MONTAGNARDS

                              ----------                              


                        TUESDAY, MARCH 10, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. In 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms, 
chairman of the committee, presiding.
    Present: Senators Helms, Hagel, Kerry and Robb.
    The Chairman. The committee will come to order.
    I just got my latest instructions from my boss back here 
(indicating), and she is a good one.
    I don't know how to begin this morning except from a 
personal standpoint.
    During the holidays, when the liberties of the American 
people were safe and the Congress was not in session, and I was 
in Raleigh and you Chuck, were in Virginia, a group of people 
came to my home one morning; and I never was impressed more 
with anybody.
    In any case, it is a personal honor this morning to call 
the Foreign Relations Committee into session for a hearing on 
the plight of the Montagnards. This is a long overdue 
assessment of the hardships the Montagnards have suffered in 
communist Vietnam--largely, because they have worked with and 
supported the U.S. Government and our fighting men and women in 
Vietnam during that war.
    The Montagnards' home is in the central highlands of 
Vietnam. During the Vietnam War, they fought valiantly 
alongside of U.S. troops. They suffered heavy casualties 
fighting against the communist North Vietnamese troops and the 
communist guerrilla forces in the South. After the United 
States withdrew from Vietnam, the Montagnards continued 
fighting for freedom and independence. But, sad to say, to this 
date it has been to no avail.
    As a result of their courageous anticommunism and their 
association with the United States, the Montagnards continue to 
experience difficulties in their everyday lives. The Vietnamese 
Government interferes with the Montagnards applying for 
permission to emigrate to the United States and restricts 
humanitarian assistance agencies, including the Lutheran Family 
Services in Raleigh, North Carolina, from reaching their people 
who live in the highlands of Vietnam.
    Many Montagnards are forced to substitute Vietnamese 
citizens into their family units and pay exorbitant fees to get 
exit permits. In addition, they are forbidden to use the mail 
system, and they have been denied access to jobs, housing, and 
education.
    Nevertheless, the Clinton Administration has decided to go 
ahead and waive the requirements of free emigration contained 
so clearly in the Jackson-Vanik Amendment.
    Back in November, I wrote to Secretary Albright asking her 
to, ``urge the administration not to exercise Jackson-Vanik for 
Vietnam but to insist upon Vietnam's full compliance with the 
standards of free emigration before going forward with any 
trade benefits.''
    I do hope the administration's witnesses here this morning 
will be able to provide some encouraging information about the 
status of the decision to waive Jackson-Vanik in our 
relationship with Vietnam and how the administration justifies 
waiving it in light of the problems I have just identified.
    Now I would be glad to hear from Senator Robb for any 
opening statement he may have.
    Senator Robb. Mr. Chairman, I thank you for that 
opportunity. I wanted to come at least for a few minutes to 
this hearing, because I share the same emotional attachment 
that I suspect Senator Hagel has, and he is probably here for 
the same reason. Both of us served in Vietnam. Both of us have 
a very high regard for the Montagnards and all that they did in 
support of our forces and our cause during that period. This is 
what I would consider a humanitarian inquiry and hearing and is 
very appropriate.
    Because I am the ranking member of our Seapower 
Subcommittee, I am going to have to depart. I will try to come 
back. I would like to hear, hopefully, Secretary Roth's opening 
statement before I go. I would like to come back and hear some 
of the second panel of witnesses as well as Secretary Taft. I 
think this is the kind of thing that we ought to be inquiring 
into, and I personally thank you for your sensitivity to this 
easy to overlook matter that affects what really is a great 
nation, and we should not let it pass by so easily.
    I have no opening statement. I am here for essentially the 
same reasons that you called this hearing, and I thank you for 
doing so.
    The Chairman. If you don't have an opening statement, the 
comments you have made will certainly be a good substitute. 
Thank you so much, Senator.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. I, too, wish to 
express my thanks to you for convening this hearing on this 
very important issue. I echo my friend and colleague, a fellow 
Vietnam veteran, in his comments as well.
    The Vietnam chapter was a very disgraceful chapter in the 
history of this country. It is important that we get back to 
some of these important issues and talk about what we need to 
do to right some of the wrongs that were done by this country, 
by this government.
    This particular hearing dealing with this particular group 
of people is a good place to begin. So I, too, like my friend 
and colleague, Chuck Robb, look forward to our witnesses.
    I again thank you, for putting this committee hearing 
together.
    The Chairman. Thank you very much.
    Before we proceed--and we will begin with Mr. Roth--at my 
home during the holidays, a delightful group of people came. 
They played the instruments that are made from hollowed out 
bamboo and brought some of their tapestry and cloth. They even 
brought a jacket which I shall always treasure. These are 
wonderful people.
    I told them then, that as soon as I could manage it when I 
got back to Washington, I would schedule this hearing. This 
hearing is it.
    Mr. Roth, you may begin.

STATEMENT OF HON. STANLEY O. ROTH, ASSISTANT SECRETARY OF STATE 
               FOR EAST ASIAN AND PACIFIC AFFAIRS

    Mr. Roth. Thank you very much, Mr. Chairman and members of 
the committee. I would like to begin by commending the 
committee for holding a hearing on this subject. I agree with 
the comments that have been made by all three members of the 
committee that not enough attention has been paid to this 
issue. I believe I am here today to give you an assurance that 
I personally will pay attention to this issue. I have not yet 
been to Vietnam in this capacity, in this job as Assistant 
Secretary, although I have been there previously. Of course, 
Assistant Secretary Taft has and will describe her trip. But I 
want to assure you that on my first visit there, which I expect 
will be in May, I will raise the set of issues concerning the 
Montagnards in my meetings with all Vietnamese officials.
    So I think this is a very timely hearing for me personally.
    In terms of the substance of the issues, I will be 
abnormally brief and let Assistant Secretary Taft talk; since 
she has a greater frame of reference on this, having recently 
been in Vietnam. I wanted to make only a few basic points.
    First, I agree with your assessment that there are two 
different sets of issues. One is the treatment of the 
Montagnards within Vietnam itself. Their status as a minority 
community and the status of having formerly fought with us has 
led to discriminatory behavior. There are all kinds of 
statistics indicating greater poverty, greater health problems, 
and discrimination in benefits. I want to pledge to you that I 
will undertake a personal effort--I, of course, cannot 
guarantee success--in my conversations with the Vietnamese to 
try to open up greater benefits for these people in Vietnam. In 
that regard, I mean specifically Vietnamese benefits from their 
own government and also access from American NGO groups who are 
very anxious to provide what you and I would consider, I think, 
humanitarian assistance--not political, not revolutionary, but 
humanitarian assistance--to these people. I think they have a 
right to it, and we will try to make that happen.
    I will keep you apprised of any progress that I make and 
will make sure that other senior State Department officials 
from the political side of the house as well as the refugee, 
democracy, and human rights side of the house do the same 
thing.
    The other set of issues concerns emigration and access to 
exit permits so that this community can be interviewed for 
emigration to the United States. Assistant Secretary Taft will 
provide you with the status of those efforts.
    The point I want to emphasize is that I believe the current 
thrust of U.S. policy toward Vietnam, which has been gradual 
progress toward normalization as we work out specific issues 
with them on POW/MIA matters and on a series of economic 
issues, should support the objectives that you and I both 
share.
    I believe that Ambassador Pete Peterson is enjoying 
increasing success in his representations to the Vietnamese 
Government on a variety of issues. We have seen dramatic 
progress, for example, on the ROVR program concerning some of 
the refugees this year. I think that is partly a function of 
Pete's personal relationship and personality with the 
Vietnamese; but also, because the Vietnamese welcome the 
progress that has been made in the context of normalization.
    I should add for the sake of accuracy that the President 
has not yet made a decision on Jackson-Vanik. We have had 
consultation with the Hill, as you know from your staff. The 
decision is imminent, and I had expected it by the time of this 
hearing. I think it will come down very shortly. But, 
technically, the decision has not been made.
    But the rationale has been not any factual disagreement 
with you that the situation is not perfect but, rather, because 
we think the very criteria of the law, that the waiver can be 
made if we believe it will lead to further progress on 
emigration issues, is going to be met in this regard. So it is 
precisely because we want more progress and because we think 
the track record to date that we have made with Vietnam on 
emigration issues has been quite positive--over 480,000 people 
have come to the United States under the ODP or Orderly 
Departure Program--that this waiver should help, not hurt, the 
situation. That is why the recommendation has gone forward to 
the President for a decision.
    Let me stop at that point.
    [The prepared statement of Mr. Roth appears in the 
Appendix.]
    The Chairman. Thank you.
    Ms. Taft.

 STATEMENT OF HON. JULIA V. TAFT, ASSISTANT SECRETARY OF STATE 
            FOR POPULATION, REFUGEES, AND MIGRATION

    Ms. Taft. Thank you very much, Mr. Chairman, members of the 
committee. I am really very honored and pleased to have the 
opportunity to talk to you today about our experience in 
processing Montagnards for admission to the United States.
    The plight of the Montagnards is particularly compelling, 
not only because of the long-standing relationship with our 
armed forces but also, as Secretary Roth points out, because of 
the discrimination and problems that the Montagnards face 
politically and socially within the country.
    While we have done quite a lot to bring in Montagnards in 
our refugee processing program, we still have about 900 that we 
are waiting to try to get exit permits for, interviews for, 
which still remain in Vietnam. We are hoping in the very near 
future that we will be able to have access to these people, and 
that they will be processed in this fiscal year.
    As you have pointed out, Mr. Chairman, so poignantly, the 
Montagnards have had an incredibly brave existence, fighting 
with their resistance force, trying to deal with their own 
natural integrity and trying to promote the liberation, as they 
call it, of oppressed races through the FULRO process.
    These resistance activities actually ended in the early 
1990's. But prior to that time, we were able to process a 
number of Montagnards. Two particular groups, as you know, sir, 
went to North Carolina.
    In 1985, 201 Montagnards made their way to the Thai-
Cambodian border following 10 years of the resistance 
activities. We processed those people in our refugee program 
and brought them to North Carolina.
    They were shortly followed by another 398 resistance 
fighters that the peacekeeping operation in Cambodia found on 
the northeastern border.
    When we found those people, we also processed them to North 
Carolina.
    Now this was an unusual decision on the part of our 
government, to have such a large concentration of refugees in 
one particular area. But because of a very active and concerned 
Vietnam Veterans Association and the wonderful support 
structure and interest of the Lutheran Immigration and Refugee 
Service, we made a decision to allow them all to go to North 
Carolina. You must be very proud--and, of course, they are all 
here to see you--very proud of the fact that your constituents 
are such a generous people.
    As a matter of fact, although I do not have all the 
statistics for the other States, North Carolina has taken over 
16,000 refugees in the last couple of decades, 6,200 of which 
are Vietnamese.
    During the late 1970's and early 1980's, when a large 
number of boat people left Vietnam, very few of them were 
Montagnards. They were not part of the exodus that went to the 
Southeast Asian countries and to Hong Kong. The majority of 
Montagnards that were processed to the United States--and it 
was 1,042 at that time--have been admitted as refugees from 
inside Vietnam. They had not left the country, and they were 
part of what we call the Orderly Departure Program.
    ODP was established in 1979 by the U.N. High Commissioner 
for Refugees and by other concerned countries to try to find a 
safe way to deal with the status of people who wanted to leave 
Vietnam. We did not want them to have to leave on very unsafe 
boats and resort to clandestine departures. It was at that 
point that we established the processing program from inside 
Vietnam.
    Since its inception, as Mr. Roth has said, 486,000 
Vietnamese have been processed directly from Vietnam to our 
program. We currently have a caseload awaiting processing which 
includes four categories of people.
    One are the former reeducation camp detainees that also 
includes the Montagnards. We have about 2,500 of them awaiting 
processing.
    In addition, we have the ROVR caseload, which are those 
people who went to Southeast Asian camps and came back to 
Vietnam. We are processing--hopefully we are processing--about 
18,000 of those people. This is the current program that we are 
accelerating with Vietnam.
    We also have some Amerasians that we are hoping to be able 
to process into the United States. Then there are the current 
immigrant visa cases.
    With regard to the Montagnards, when I was in Vietnam in 
January, I did press upon the Vietnamese authorities our top 
priority. I also told them I was going to be coming here today 
and that they had better move quickly on this caseload. It is 
amazing what a hearing can do.
    But I am not the only voice. The Ambassador has been 
strenuous in pushing forward both the ROVR program and the 
Montagnard program. And, as I state in my formal submission 
here, just last month, finally, the Ministry of Interior 
decided that it would send representation up to the central 
highlands to find the Montagnards that we had on our list. I 
had said I am giving you these lists again and we would like 
exit permits for these people.
    They sent someone up there to identify these people and, 
hopefully, we are going to see them for processing. If we do 
not get any movement on this, I want to find out what other 
ideas you have which might even include our sending Americans 
up there to do the INS processing ourselves. We need to be 
tough on this. The fact that we are having this hearing today, 
I am sure, was directly related to their decision to send 
someone up to the highlands.
    What we are hoping to do this fiscal year is to complete 
the processing of everyone that we have on our lists, which 
include the ROVR's, which include the Amerasians, which include 
the Montagnards and the reeducation camp personnel.
    What we would like to do but we do not have authority to 
do--and I hope that you will be supportive of it--is to pass 
the McCain Amendment. The current McCain Amendment, which 
expired September 30, allowed us the ability to process single 
children over 21 of reeducation camp detainees who had been 
processed through our system. We have not been able to 
interview or process any since September, and the 
administration would like very much to have authority to do 
this through March 1999.
    The House has passed a bill in this regard and we can 
submit the specifics to you, sir. We would appreciate very much 
your allowing us to have access to these people.
    In closing, I want you to know that it is very moving to 
see the audience here today, both the staff and the members of 
this committee, but also the Montagnards who have come up from 
North Carolina. This means everything to them, and I want to 
assure you and them that the administration is going to work 
very hard to process their fellow Montagnards to this country.
    Thank you so much, Mr. Chairman.
    [The prepared statement of Ms. Taft appears in the 
Appendix.]
    The Chairman. That was a very encouraging statement.
    Before we begin the questioning, let me mention one thing. 
A year or so back I invited seven or eight Ambassadors from the 
ASEAN nations to come to North Carolina. At the time I made the 
invitation, Vietnam was not yet recognized.
    But the question came up as to whether I would include the 
Vietnam Ambassador. I made the judgment of why not, because we 
could talk to him about this and other issues, which I did. He 
made a number of representations to me in good faith. Now you 
know that an ambassador does not run the country; he represents 
a country. I hope Pete Peterson will talk to the folks over 
there, and I hope we will stay behind the Ambassador here so 
that we can get something done on this question.
    I see the arrival of the distinguished Senator from 
Massachusetts. Would you have a statement to make?
    Senator Kerry. Mr. Chairman, just very briefly, if I may, I 
thank you for the opportunity to do that, sir.
    First of all, let me thank you for having this hearing. 
This is an important topic. I know you have a number of 
Montagnard residents in your State, as there are in other parts 
of our country. These are people who fought with us, who 
believed in us, who took great risks on behalf of freedom. We 
clearly need to keep our eye well focused on their capacity to 
emigrate and their rights.
    I just would report for the record that I was in Vietnam in 
January--actually just preceding Ms. Taft--and had a number of 
meetings at all levels. I raised the issue of emigration 
significantly.
    What I found, and I think Ambassador Peterson has found, is 
that there sometimes is a disconnect between policy and 
implementation--and it is not unusual in Washington to have a 
disconnect between policy and what happens in many of our 
States.
    I am confident that at the highest levels there is an 
understanding of the need to move, as there was on the ROVR 
program. When we raised the ROVR program with them, there was a 
response. Cases were acted on, and we began to really move to 
the interviews.
    In fact, the greatest backlog now is in our ability to 
interview people quickly. The Vietnamese have now located many 
thousands of people for interviews, and we are sort of running 
behind on the interview process.
    I am confident that for the Montagnard issue, likewise, 
this kind of focus will help to bring about a greater 
commitment to reaching out and finding those folks to whom we 
need to be helpful. I am confident that Ambassador Peterson, 
who also feels this very strongly, is prepared to bring up any 
individual cases, any individual names, to help press those and 
guarantee that we continue to move forward.
    But I know that the policy at the upper level has changed 
and is committed to trying to facilitate the process. It is 
often at the local level where, in fact, there are sometimes 
some distinct differences of both opinion and ideology, even in 
this evolution that is taking place in Vietnam. As a result it 
is harder to have follow-through at all times.
    I think Secretary Roth would agree that Vietnam has 
increasingly been forthcoming when we have been able to point 
to it.
    But I also would say to my colleagues that it is very, very 
important to place this in the larger context of a lot of other 
issues that we are now cooperating on with Vietnam, including, 
I might add, the larger interests we have in terms of regional 
security with respect to China, the problems in Cambodia, and 
the problems in Burma.
    So I think when you balance it, there is a good opportunity 
here to continue to make progress, Mr. Chairman; and I am 
confident that this hearing is going to be able to help us do 
that. I thank you for that.
    The Chairman. I thank the Senator.
    Mr. Roth, before we begin, there is another little matter 
of common interest between you and me.
    There are the despicable procedures in China where they 
take political prisoners out of jail cells having weeks before 
or months before determined about various organs and their 
usefulness to various customers having $40,000 in U.S. money 
and so forth. They are taking them out, shooting them, and 
selling their organs to people in this country and in countries 
all over the world.
    Now you and I have discussed this. We have corresponded 
about it. I just hope you will say for the record that you 
intend to press on to bring an end to this despicable practice 
by the Chinese.
    Mr. Roth. You bet. In fact, I was going to inform you after 
the hearing, but I can do it during the hearing, that, as a 
followup to our last conversation, one of my deputies, Deputy 
Assistant Secretary Susan Shirk is in China today. I received a 
message about an hour prior to this hearing that she and our 
China Director had raised this with their Chinese counterparts. 
Again, our concerns were based upon the last arrests in New 
York in this case and saying that we need more information, 
that we simply cannot accept a flat denial, that they have to 
investigate this matter and that we have to make more progress.
    So we are pushing the Chinese on this issue. I cannot tell 
you that we have achieved a breakthrough yet in terms of 
behavior, but we are investigating every report and we are 
being diligent.
    The Chairman. I hope you will do everything possible to 
make clear to the American people that this practice is going 
on and that it is undeniable. They deny it is going on, but, of 
course, it is. You know it and I know it. I hope that we can 
work together, making clear that at least the American people 
know what is going on in that respect.
    Now, then, I have one question. Why did you not seek full 
compliance with Jackson-Vanik for Vietnam instead of waiving 
the amendment's requirement of free emigration?
    Mr. Roth. One of the provisions in the Jackson-Vanik 
legislation is that the waiver authority can be used if it is 
believed that it will promote the objective of freer 
emigration. Based upon the pattern of Vietnamese behavior to 
date, the 480,000 people that have gotten out under the ODP 
program plus some of the other steps that Assistant Secretary 
Taft provided is real reason to believe--not just pie in the 
sky hope but real reason to believe--that moving forward with 
the Jackson-Vanik waiver and some of the additional programs 
will increase our chances for making progress with the 
Vietnamese on the remaining issues, which include the exit 
permits under the ROVR program and the issues on the Montagnard 
exit permits as well as the domestic conditions for them.
    So this is a judgment call but based upon the criteria in 
the legislation itself.
    The Chairman. I'll tell you what, I will end my questioning 
about it. Let's agree that you and I both will contact Pete 
Peterson to let him know about the substance of this hearing 
and also that we contact the Vietnamese Ambassador to the 
United States.
    He is a very pleasant man. But he has not done anything. 
Now I understand that it is difficult for an ambassador to tell 
his president what to do, but I hope he will try.
    I believe I will not ask another question at the moment.
    Senator Kerry.
    Senator Kerry. I just have one quick question, though not 
so much on this, Mr. Secretary.
    Until a year or so ago, there were a fair amount of 
tensions between China and Vietnam and, indeed, in the region. 
Now there appear to be much more significant overtures of 
cooperation with respect to the Spratleys, with respect to 
China's involvement in Cambodia with Hun Sen, with respect to 
Burma also, where there is a significant presence.
    Does that suggest anything to you about American presence 
and influence in the region and perhaps other interests we may 
have?
    You might just share a thought or two on that at this 
moment.
    Mr. Roth. First, let me say on the narrow issue of China--
Vietnam relations, it is kind of a roller coaster. It goes up 
and down. They have several sets of negotiations. They make 
more progress on some than others. They are not doing 
particularly well in trying to define the maritime dispute. I 
would say, as far as I recall, they have made zero progress. 
They have done better on their land dispute and their overall 
atmosphere is better.
    But this has the potential to revert at any point to a 
situation of tension, particularly as they do drilling, as both 
of them proceed with drilling efforts or exploration in the 
South China Sea. So I would not want to over-state it.
    On your bigger point, I think what it suggests is that the 
United States cannot afford to be complacent about our 
relationships in Southeast Asia or, indeed, in all of Asia; 
that there are other influences out there. China is a rising 
power, has increasingly active diplomacy in the areas your 
pointed out, but in other areas as well. It is the largest 
donor of food on the Korean Peninsula. It has had some 
increasing role to play in some of the ASEAN institutions. It 
has participated in the Thai bailout package. So we are seeing 
a larger Chinese role.
    All of this suggests to me that we need a vigorous American 
role as well, that we need not to abandon the field to anyone, 
and that applies on the economic front, the diplomatic front, 
and the political front.
    Senator Kerry. Could you share something with us? When I 
went over there, I was significantly concerned, as I think a 
number of us were, about the potential for a kind of 
retrenchment, maybe a step backward in Vietnam because there 
was a change of leadership taking place.
    We have now had a few months to evaluate that. During the 
time I was there, I voiced very significant concerns with the 
Prime Minister and others about the need to move more rapidly 
and forcefully with respect to economic reforms, and 
particularly to try to bring to closure some of the 
negotiations on specific projects and to embrace more of the 
market system. They were talking about it, but there was a 
seeming hesitancy at the time.
    The prime minister at that time, the new prime minister and 
the new deputy prime minister, who is also the foreign 
minister, strongly stated that they are deeply committed to 
proceeding faster with the reforms and, indeed, during the week 
I was there, they articulated a much stronger, broader, 
national policy. They actually brought in people from the 
provinces and basically said this is the way we are going to do 
it and this is how you have to move more adroitly to implement 
some of these reforms.
    I think they termed it the one door/one key policy or 
something to that effect.
    Can you share with us whether or not that progress 
continues, whether or not it is your judgment that they are 
moving down that road? Or have you drawn any other kinds of 
conclusions about where the leadership may be moving in these 
early months?
    Mr. Roth. First let me say that I think the administration 
has gone through exactly the same thinking process that you 
did; that, you know, in looking at the leadership, there was 
some concern that this might perhaps be a more conservative 
leadership, less committed to economic reforms or some of the 
other steps Vietnam has taken recently to reenter Southeast 
Asia, as it were.
    The rhetoric coming out of the initial few months has been 
much better than we had feared. In Vietnam, all three leaders 
seem committed to the reform programs of their predecessors on 
the economic side and seem committed to ASEAN as well.
    I guess the real issue is results. Are they going to be 
successful in hammering through reforms? I think here it is 
fair to point out that they are taking power at an unfortunate 
time in the sense that the ``Asian flu,'' as it has come to be 
known, has some impact on Vietnam as well. The willingness of 
some people, of markets, to invest in many countries in 
Southeast Asia is less now than before, and the fact that 
Vietnam had some specific problems relating to inefficiencies 
and corruption has made it more difficult and we are seeing 
less foreign investment going in now than in previous years.
    Some of the American companies--and you have met with their 
representatives--have been discouraged about the pace of 
events. So they are laboring under difficult circumstances now 
to try to turn around the economy and resume the higher rate of 
progress from the past.
    I have not seen any recent reporting on specific results. 
But what I would like to do is to get you a detailed answer for 
the record to see if there are any specific implementation 
steps that we can cite for you.

    [The information referred to follows:]

    The new leadership, headed by Party General Secretary Le 
Kha Phieu, Prime Minister Phan Van Khai and President Tran Duc 
Luong and operating by consensus as is Vietnamese custom, has 
publicly voiced its commitment to economic reform. Vietnam has 
recently taken positive measures, moving quickly to issue a 
number of decrees. The Asian financial crisis, which is 
beginning to negatively affect Vietnamese exports and forcing 
investment inflows, has helped focus the new leadership on the 
importance of a continuing commitment to economic reform. 
However, the reforms and the rhetoric surrounding their 
implementation suggest that the internal dispute over the 
extent and pace of reform continues.
    In general, recently announced changes are positive. 
However, they focus on making more effective the country's 
extensive system of administrative controls and procedures 
rather than their elimination, demonstrating that the 
Vietnamese government has yet to embrace a completely market-
oriented reform program.
    The recently announced measures, many of which have not yet 
been implemented, include reforms to the trade and foreign 
investment regimes and the financial system. A number of the 
reforms represent important steps such as the gradual 
elimination of many export and import quotas; streamlining 
investment procedures; elimination of some import bans; 
expediting the processing of trade documents; and protection of 
established foreign investments from the negative effects of 
legal and regulatory changes. Many of the measures provide 
incentives, such as tax breaks and favorable access to credit, 
aimed at increasing exports from or foreign investment in 
targeted sectors. Other reforms are inconsistent with a market-
oriented reform process. These include: the imposition of 
foreign exchange controls; increase import controls; the 
suspension of new banking licenses; and the monitoring of 
enterprises with foreign investment to ``ensure thriftiness.''
    Economic experts, including International Monetary Fund 
staff, have warned that the reforms thus far undertaken by the 
Vietnamese government do not go far enough. They warn that an 
economic crisis will result from structural problems in the 
Vietnamese economy and the spill over effects of the Asian 
financial crisis if Vietnam does not immediately undertake 
fundamental reforms including privatization of state 
enterprises, financial sector reform, adoption of a flexible 
exchange rate system and trade liberalization. It remains to be 
seen if the current leadership is willing or able to reach 
consensus on such a far-reaching program of structural economic 
reform.
    The U.S. Government is engaged in a dialogue with the 
Vietnamese government to impress upon it the importance of 
continued market-oriented economic reform. This dialogue is 
supported by concrete action. The Agency for International 
Development has initiated a Commercial Law Development Program 
to help Vietnam draft laws and regulations consistent with an 
open economy. We are also negotiating a bilateral trade 
agreement, without which Vietnam cannot obtain Most Favored 
Nation (MFN) trade treatment, that will embody market 
principals and promote greater integration of Vietnam in the 
world economy.

    Mr. Roth. Let me also say for the record, Mr. Chairman, 
that I agree to your proposal to call Pete Peterson and the 
Vietnamese Ambassador and will do so today.
    The Chairman. Very good.
    This is interesting. Let me say to the young people who are 
visitors here this morning, we encourage you to come. The media 
cannot cover every detail and this is one in particular that I 
wanted to be covered because of its impact on North Carolina 
and because of the feelings that I have, and that I think most 
people have, about the mistreatment of these people.
    But I would say to the young people that our two witnesses 
now are Hon. Stanley O. Roth, who is Assistant Secretary of 
State for East Asian and Pacific Affairs, and the better 
looking one of the two is Hon. Julia V. Taft, Assistant 
Secretary of State for Population, Refugees and Migration.
    I say to you young people again that we are glad to have 
you. You may want to ask some of us a question after this 
hearing is over.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Again, thanks to both of you for coming up this morning and 
offering your thoughts.
    Secretary Taft, what in your estimation is the Montagnard 
population now in Vietnam?
    Ms. Taft. I am not sure exactly what the overall Montagnard 
population is, probably just several thousand. The ones that we 
are hoping to be able to reach in our program are about 900 of 
those.
    Senator Hagel. So we don't know, generally, how many 
Montagnard people there are left in the central highlands or in 
Vietnam?
    Ms. Taft. I don't know. We could submit that for the 
record. I know that there are 54 ethnic groups. This is one of 
the smaller ethnic groups that does remain. It is in the 
central highlands, a quite remote area, which is particularly 
disturbing because they do not have access to so many of the 
other benefits that even the citizens of the rest of the 
country have.
    So it is their remoteness, their small number. They are a 
minority; they have not really been able to integrate well; and 
the ones that we are considering for the U.S. program are ones 
who had a pre-1975 experience with us. In other words, they 
were trained with our military, they fought with us--plus their 
direct relatives and those who had been in reeducation camps 
for 3 years or more.
    So the 900 is not the total. But those are the most 
vulnerable that we have been able to identify.

    [The information referred to follows:]

    Available information indicates there are 800,000 to 
1,000,000 people in Vietnam who are collectively referred to as 
Montagnards, from the French word for mountain people.

    Senator Hagel. How do we treat their children? Do they 
qualify?
    Ms. Taft. Yes, sir. Yes, they do.
    Senator Hagel. What about the Montagnard population in 
Laos? Do we have any idea what the numbers are there?
    Ms. Taft. I am not aware of any. There are some lowland Lao 
and some Hmong still in Thailand. But I am not aware of any 
Montagnards still in Thailand, certainly, that have come to our 
attention for processing. And we have a pretty good network to 
try to identify them. But I am not aware of any.
    Stanley?
    Mr. Roth. We have other ethnic problems in Laos, the Hmong 
issue in particular, which is a major issue for us. But that is 
a totally different situation.
    Senator Hagel. Thank you.
    Secretary Roth, you mentioned in your statement, as you 
just did, Secretary Taft, other ethnic minorities. What are we 
doing for the other ethnic minorities? What programs do they 
qualify for to escape, if they choose to exit Vietnam?
    Ms. Taft. Do you want me to take this?
    Mr. Roth. Sure, go ahead.
    Ms. Taft. First of all, we try not to have a situation 
where people have to ``escape'' Vietnam. That is why with 
Congressional consent we started the Orderly Departure Program 
in Vietnam. It is one of the few countries in the world where 
we actually process refugees in the country of origin.
    Senator Hagel. Let me ask you this. Are we not still seeing 
a situation where people are escaping because they cannot 
qualify or comply with records? Everyone is happy and they are 
able to leave if they want to leave?
    Ms. Taft. Well, there are some people from the northern 
part of Vietnam that still are boat people going to Vietnam. 
But they are not really boat people fleeing persecution.
    Senator Hagel. Going to or coming from?
    Ms. Taft. I'm sorry. I meant going to Hong Kong.
    What we are finding out of places like Haiphong is people 
who are going to Hong Kong to try to work illegally and they go 
back and forth. But there is no real exodus of people anymore 
that we are aware of in Vietnam.
    I think that this really speaks to the fact that there has 
been an incredibly generous opportunity for people to resettle 
in third countries. Ever since 1975, the U.S. has taken about 
1.4 million Indochinese into our country from this area. So we 
have an ongoing program. We have about, I would say, maybe 
22,000 total that we are still looking at to come to the U.S. 
in the various programs that we have--the Amerasian program, 
the ROVR program, and our reeducation camp detainees.
    So we are almost at the end of the major group processing.
    There has been a question that a number of Montagnards and 
advocates and other groups have asked which is: ``What happens 
when we complete all of these smaller processing programs. Does 
that mean we are closing down?''
    I would like to say for the record now that my intention is 
to advocate that we not do that, that we always hold open the 
opportunity for individual cases of compelling humanitarian 
need. We ought to be able to rescue those people and bring 
those people into the United States for many years to come--but 
not the kind of group eligibility that we are currently 
processing right now.
    We hope that those cases will be processed by the end of 
this fiscal year and then regularize the immigration program. 
This speaks to the Jackson-Vanik issue.
    We think Vietnam very much wants to regularize the 
emigration program and as soon as we finish the special refugee 
designations, we think that it will get on a solid processing 
track for immigration. We will begin our consular services.
    That is the long-term view of how we will see the 
emigration program evolving with the Government of Vietnam, 
where people can be in the immigrant stream just like 
immigrants from other nations who come to our country every 
year.
    Senator Hagel. Thank you.
    Secretary Roth, would you like to add anything specifically 
on the other ethnic minorities?
    Mr. Roth. What I would like to suggest, since I do not have 
any personal knowledge of 53 other ethnic groups, is that I get 
you an answer from our embassy and submit it for the record.
    I would merely note the obvious point that not all of these 
groups, I would suspect not most of them, were involved in the 
same type of resistance activities as the Montagnards. So their 
case is probably significantly different.
    But, rather than guess, why don't we get you a factual 
answer for the record.
    Senator Hagel. Thank you.

    [The information referred to follows:]

    We are not aware of any minority other than the various 
ethnic groups referred to as Montagnards that have encountered 
difficulty as a group in emigrating to the U.S. from Vietnam.
    However, the Orderly Departure Program (ODP), which 
processes Vietnamese emigration, does not break out statistics 
on ODP applicants by ethnic group, with the exception of 
Montagnards.
    Vietnam's largest minority, the ethnic Chinese, who 
suffered from anti-Chinese policies pursued by the Government 
of Vietnam in the years immediately following the Vietnam War, 
has comprised a substantial portion of applicants who have 
successfully emigrated to the U.S. under ODP. Ethnic Chinese 
continue to apply successfully for emigration to the U.S. 
through the ODP program.
    Our objective remains to ensure that all ODP and ROVR 
applicants, who are not otherwise ineligible, are able to apply 
without hindrance. When we encounter any case where we have 
reason to believe that has not been true we have pursued the 
issue vigorously with the Vietnamese government, and we will 
continue to do so.

    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. The testimony has been very interesting. I 
have several more questions, but I believe I am going to submit 
them in writing so that we can get to the next panel. But 
before I do that, reference was made to all the progress that 
has been made. That was made, was it not, without the benefit 
of trade? Am I wrong or right about that?
    Ms. Taft. Yes, sir. There have been negotiations for years 
for the processing of refugees.
    The Chairman. But the progress was made before the trade 
benefits were authorized and approved by the United States, is 
that not right?
    Mr. Roth. We have not provided trade benefits yet, as you 
know. We do not have a whole series of normal trade programs.
    The Chairman. Yes, that is my point. If all of this 
progress has been made before the decision is made to extend 
trade benefits to them, how will trade benefits help them do 
the right thing?
    Mr. Roth. There is a concern that Ambassador Peterson has 
had, which I share and many others share, that one can go 
backward; that it is entirely possible that they can, for 
example, not cooperate on the ROVR program or not cooperate on 
access to the Montagnard areas, or not cooperate on a range of 
other issues. What we are trying to do is to come up with a 
strategy that maximizes the pace. We want to increase the pace 
of the progress rather than have this incremental step where we 
pull progress out slowly over a period of 20 years, which has 
been the history in the refugee progress, and see if we can 
speed things up and diversify progress in more areas across the 
board.
    The feeling is that with Jackson-Vanik and, hopefully, with 
the provision of some of these trade benefits, we will increase 
Vietnamese cooperation.
    The Chairman. But they are thumbing their noses at us, 
really.
    Am I correct in my understanding that Pete Peterson cannot 
even go up into this area? Is he not restricted from going 
there?
    Mr. Roth. I don't know that any Americans have gone, but I 
will inquire as to any specific limitations on him.
    The Chairman. Well, my information is very clear. How about 
confirming it? I know, of course, what the answer is.
    Mr. Roth. OK.
    The Chairman. Anyway, I participated in making it possible 
for their Ambassador to go to several points in North Carolina, 
along with other Ambassadors of the ASEAN Nations. And here his 
country won't even let our Ambassador go up there.
    Ms. Taft. Excuse me, sir. We ought to check up on this, the 
number of Americans who can go and what the Ambassador can do.
    The Chairman. I hope you will. I think you will find that I 
am right.
    Ms. Taft. OK.
    The Chairman. I will be glad for you to find out this 
morning and come back and I will put you back on the witness 
stand if I am wrong about it.
    Ms. Taft. You are seldom wrong about anything, sir. So I 
think you are right. [General laughter]
    Ms. Taft. We will find out about that.

    [The information referred to follows:]

    USG personnel have regular and unencumbered access to every 
area of Vietnam where Montagnards live, except for sensitive 
military zones. Teams of personnel from Joint Task Force-Full 
Accounting work constantly in every province of Vietnam, 
including mountainous provinces and in areas of high 
concentrations of Montagnards. Ambassador Peterson travelled to 
the Central Highlands in September, 1997. Several Embassy 
officers have travelled frequently through the northern and 
central highlands on private trips without incident. Most 
recently, officers from the Consulate General in Ho Chi Minh 
City travelled there in late March and met with Montagnards. 
While encountering deep-seated poverty and a high degree of 
control by Vietnamese authorities, officers did not see 
indications of serious repression. Although traveling in a 
large group of consular officials, the officers were able to 
speak privately with Vietnamese-speaking Montagnards.

    The Chairman. Fine.
    Ms. Taft. One of the points I also want to say, which 
relates to the Vietnamese Ambassador, is this. Before I went in 
January, I brought him in to discuss with him the deliverables 
that I expected. This is because it is a long trip out there 
and I wanted to make sure that the Vietnamese understood that 
we wanted to see real progress on ROVR. When I got there, I was 
overwhelmed with the detail in which they were able to address 
every question that I had.
    Now I did not get unanimous support on every request, but 
they had paid attention, they had tried to be responsive. The 
pressure was certainly on for them to deliver some real 
commitments and we are seeing progress.
    I just spoke with the Ambassador again a couple of weeks 
ago. I think he is trying very hard.
    What I think we will be able to do, because we have already 
now been processing about 2,000 cases a month, is I hope by the 
time of June, when you will be reviewing the Jackson-Vanik 
waiver, we will show real benchmarks of achievement. It is part 
of the pressure for them to continue support on the emigration 
issue that has brought forth the kind of progress that we have 
been able to see.
    The Chairman. Young lady, I hope it works.
    I thank both of you for coming this morning. You have been 
excellent witnesses.
    Ms. Taft. Thank you.
    Mr. Roth. Thank you, Mr. Chairman.
    The Chairman. We will now move to the second panel. It will 
consist of Mr. John F. Sommer, Jr., who is Executive Director 
of the American Legion in Washington; Dr. Nguyen Dinh Thang, 
Executive Director of the Boat People S.O.S., of Fairfax, 
Virginia; Mr. Rong Nay, Assistant Director of the Montagnard 
Foundation, Montagnard Human Rights Group, Cary, North 
Carolina; and Mr. Y Hin Nie, President, Montagnard Dega 
Association, Incorporated, of Greensboro, North Carolina.
    I welcome all four of you and particularly my fellow 
Tarheels.
    Mr. Sommer, they list you first and they have you sitting 
at the right of the table. So, being a right winger, I will 
call on you first.

STATEMENT OF JOHN F. SOMMER, JR., EXECUTIVE DIRECTOR, AMERICAN 
                    LEGION, WASHINGTON, D.C.

    Mr. Sommer. Thank you, Mr. Chairman. I would like to say on 
behalf of the American Legion that I appreciate having been 
invited to discuss the Montagnards historical relationship with 
the United States, my personal account of serving with the 
Montagnards, and some of the difficulties they and other 
Vietnamese citizens are experiencing in light of Vietnam's 
noncompliance with free emigration. I have also taken the 
liberty of discussing some closely related issues of 
significant importance to the American Legion in our full text.
    In the interest of time, I would just like to mention that 
we do have a substantial amount of information in the full 
statement relating to the United States' history with the 
Montagnards as well as the development of the Civilian 
Irregular Defense Group, or CIDG, program, which, 
unfortunately, time will not permit my getting into during this 
hearing.
    However, today, as has been true for the past quarter 
century, stories abound from former Special Forces soldiers, 
Special Operations troops, and assorted veterans who served 
with Montagnards and other minorities regarding the loyalty, 
dedication, heroism and friendship exhibited by these 
indigenous fighters during the war. It is sad to say that many 
of the Montagnards held out some degree of hope at the time of 
the total U.S. withdrawal from South Vietnam in 1975, that 
their American allies would be returning to the Highlands to 
rejoin them. That was not to be.
    However, today, veterans among organizations such as the 
Special Forces Association, the American Legion, and others are 
actively involved in trying to provide humanitarian assistance 
to those courageous individuals with whom they served.
    My personal experiences with the Montagnards in 1968 while 
serving in the Fourth Infantry Division were all positive. I 
developed an affinity and a respect for the people. I continue 
to have a personal interest in the wellbeing of our former 
allies and their families.
    The plight of the Montagnards today remains most 
unfortunate. Considerable resources in the form of humanitarian 
assistance are poured into Vietnam each year by American NGO's, 
but few, if any, of the programs are permitted by the Socialist 
Republic of Vietnam Government to provide aid to the 
Montagnards in the Central Highlands despite the horrendous 
conditions of poverty and hopelessness that exist among the 
tribal people.
    An example is the Vietnam Highlands Assistance Project 
which was developed by Lutheran Family Services in 1989. During 
the nine years of its existence, the project has been allowed 
access to the Central Highlands only once, although project 
officials have continuously urged the Vietnam Peoples' Aid 
Coordination Committee to allow NGO humanitarian access to the 
Central Highlands.
    The lack of humanitarian assistance is not the only problem 
facing the Montagnards. We have seen and heard numerous 
reports, both anecdotal and official, of the strife that has 
beset Montagnards as well as ethnic Vietnamese citizens who 
have attempted to emigrate from Vietnam. There are instances of 
having to pay province officials exorbitant fees for exit 
permits and in some cases bribes to other SRV officials in 
their mostly futile attempts to negotiate the emigration 
process.
    Other issues reported include intimidation by SRV officials 
who have been given such sensitive responsibilities as 
commenting on the authenticity of documents or testimony 
provided by refugee applicants during the interview process.
    There are two especially compelling reports cited in the 
full text of my statement. The first is a recent report 
prepared by the Chief Counsel of the House International 
Relations Subcommittee on International Operations and Human 
Rights regarding his December 1997 trip to Vietnam. The second 
is the State Department's own Human Rights Report on Vietnam 
for 1997.
    The former report states in part, and I quote, ``The 
Montagnard population, many of whose members have particularly 
strong ties to the United States and particularly compelling 
refugee claims, continues to face problems that are even worse 
than those of most other Vietnamese of humanitarian interest to 
the United States. Because of their remote location and their 
alienation from the mainstream of Vietnamese society, they are 
particularly vulnerable to all of the abuses listed above. They 
have even less access to information than other residents of 
Vietnam and are even more helpless in the face of official 
corruption. For instance, some Montagnard refugees resettled in 
the United States have been forced by corrupt local officials 
to leave family members behind and substitute nonfamily members 
who then disappear upon arrival to the United States.''
    In reference to the involvement of SRV staff, the same 
report by the Chief Counsel of the House Subcommittee on 
International Operations and Human Rights states in part, and I 
quote, ``I was already familiar with what this can do to the 
integrity of refugee programs. The presence of SRV officials at 
the vast majority of UNHCR interviews with CPA returnees has 
been an important factor in the derision with which the UNHCR's 
zero persecution on return assurances have been greeted by 
Vietnamese Americans, U.S. veterans groups, Ben Gilman, Chris 
Smith, et all. Also, many applicants have written letters to 
ODP stating that they were afraid to tell their stories in the 
presence of government supplied interpreters and setting forth 
the real story is an almost always unsuccessful effort to get a 
denial reconsidered.''
    Our full statement is replete with other examples of SRV's 
onerous involvement in the emigration process, not only in ROVR 
but also in the orderly departure program. Yet, in December 
1997, the Clinton Administration announced that the President 
was seriously considering waiving the requirements of the 
Jackson-Vanik amendment for Vietnam.
    It is obvious that Montagnards and other Vietnamese 
citizens are not, by any stretch of the imagination, free to 
leave Vietnam if they so wish. For the President to waive 
Jackson-Vanik would be the same as closing the door forever on 
the possibility that many of these deserving individuals could 
ever be resettled outside of Vietnam.
    In addition to Jackson-Vanik, 19 U.S.C. 2433 provides 
authority for the President to withhold nondiscriminatory trade 
treatment to countries based on cooperation with our efforts to 
account for American military and civilian POW's and MIA's in 
Southeast Asia.
    It is contingent upon cooperation to achieve a complete 
accounting of the POW's and MIA's to repatriate personnel who 
are alive and to return the remains of those who are dead to 
the United States. The SRV Government is not cooperating 
anywhere near the extent to which it can. A degree of 
cooperation is being offered in the joint field activities, 
where our Joint Task Force Full Accounting and Vietnam's Office 
of Seeking Missing Personnel are excavating crash sites and 
other incidents.
    Of course, the United States is paying Vietnam handsomely 
for this assistance. It is the unilateral cooperation of the 
central government that has not been forthcoming, and this is 
detailed in our full statement.
    The third concern is Vietnam's abysmal record on human 
rights. In reviewing the State Department's Human Rights Report 
for Vietnam for 1997, it is interesting to note the comments 
that relate to one of the issues under consideration at this 
hearing. Under ``Emigration and Repatriation,'' the following 
is quoted:

    Citizens must demonstrate eligibility to emigrate to 
another country and show sponsorship abroad before the 
government issues exit permits. Citizens' access to exit 
permits was frequently constrained by factors outside the law. 
Refugee and emigration visa applications to the Orderly 
Departure Program sometimes encounter local officials who 
arbitrarily delay or deny exit permits based on personal 
animosities or the official's perception an applicant does not 
meet program criteria or in order to extort a bribe.
    There are some concerns that members of minority ethnic 
groups, particularly nonethnic Vietnamese, such as the 
Montagnards, may not have ready access to these programs. The 
government denied exit permits for certain Montagnard 
applicants for emigration.

    As I said, that is from the State Department's own Human 
Rights Report.
    The American Legion has urged President Clinton in the 
strongest possible terms to refrain from even proposing a 
Jackson-Vanik waiver until such time that considerable 
cooperation and improvements are advanced by the Government in 
Vietnam in the three important areas that have been discussed 
in this statement.
    In closing, Mr. Chairman, we sincerely thank you for 
scheduling today's hearing on these issues which rarely receive 
the attention that they so justly deserve.
    Thank you very much.
    [The prepared statement of Mr. Sommer appears in the 
Appendix.]
    The Chairman. Thank you, Mr. Sommer.
    Please convey to your distinguished National Commander my 
personal thanks and the thanks of many others for the interest 
and support that the American Legion has given. I deeply 
appreciate it.
    Mr. Sommer. Thank you, sir.
    The Chairman. Dr. Nguyen, I have the idea or the notion 
that I may have mangled the pronunciation of your name. Would 
you pronounce your name for me, please?
    Dr. Nguyen. Yes. It is Thang Nguyen [Tong Win]. Please call 
me Thang [Tong]. That will be easier for both of us.
    The Chairman. Thank you and bless your heart. You may 
proceed. Your full statement, prepared statement, will be 
printed; and I am going to have the record printed for 
distribution, because I think this is a matter of conscience 
for this country, our country. You may proceed, sir.

 STATEMENT OF DR. NGUYEN DINH THANG, EXECUTIVE DIRECTOR, BOAT 
                PEOPLE S.O.S., FAIRFAX, VIRGINIA

    Dr. Nguyen. Thank you, sir.
    First, I would like to express my deep appreciation to you, 
Mr. Chairman, and the full committee for holding this very 
important hearing to look into the realities with regard to 
human rights conditions in Vietnam in general and particularly 
the right to free emigration in the context of the Jackson-
Vanik Amendment.
    I have been working on thousands of cases of refugees, 
political prisoners, and victims of persecution in Vietnam over 
the past 10 years. Just 3 months ago, I went to Vietnam, taking 
part in a Congressional staff delegation, to look into those 
issues, those very issues, in Vietnam. Therefore, I have come 
to make this presentation based on my personal experiences.
    The U.S. policy over the past few years has aggravated the 
plight of victims of persecution in Vietnam, and at the same 
time, unfortunately, has bolstered the government's repressive 
grips on these victims.
    In July, 1995, the administration normalized relations with 
Vietnam with the promise that political liberalization and 
improved human rights will follow. Well, things have not turned 
out that way.
    There are more religious leaders and dissidents today in 
Vietnam in prison than 3 years ago. There is less freedom of 
the press in Vietnam now than a decade ago. Secretaries Taft 
and Roth did mention the very promising rhetoric from the 
leadership, the new leadership, in Vietnam. However, the facts 
are different.
    There are very disturbing facts over the past few months. 
For instance, immediately after the hard-line communists took 
over the leadership of the party in December of last year, 
there was a directive from the party to its rank and file 
members working in foreign owned companies in Vietnam to form 
party cells in those companies to infiltrate those foreign 
owned companies.
    Just last month, 3,000 agents from the Ministry of Interior 
were sent under the disguise of priests and followers of the 
Buddhist Church in its attempt to take virtual control of that 
church in Vietnam. So I do not believe that things have changed 
for the better over the past 3 months with the new leadership.
    Also, the ongoing human rights dialog between the U.S. and 
Vietnam has resulted in no concrete results so far.
    In June, 1996, the administration endorsed a regional 
policy that made it virtually impossible for victims of 
persecution in Vietnam to escape from persecution. Those 
already in first-asylum camps were repatriated en masse in 
1996. Any escapees after that date to neighboring countries 
will be automatically turned back to Vietnam and delivered back 
into the hands of their persecutors in Vietnam.
    With U.S. help, Vietnam has now joined the rank of the very 
few countries in the whole world where victims of persecution 
have no way out except through the official channels that are 
totally under the control of the government, that is, of the 
persecutors.
    I would like to note that there is no program for victims 
of persecution in general to get out of Vietnam if they do not 
qualify under the Resettlement Opportunity for Vietnamese 
Returnees, or ROVR program, or the Orderly Departure Program.
    The administration is now considering waiving Jackson-Vanik 
for Vietnam. That is adding insult to injury because that means 
giving away the last leverage that our government has on 
Vietnam with regard to free emigration. It also means giving 
away the last hope for many victims of persecution of ever 
leaving Vietnam.
    The State Department has quoted many statistics to justify 
the waiver. Well, those statistics are misleading and are out 
of context.
    For instance, they obscure the fact that Vietnam is now in 
a Kafkaesque situation that the U.S. policy has helped to 
create, which is that victims of persecution must get approval 
from their persecutors in order to escape from persecution.
    I would like to put on the record that there have been a 
number of returnees who have again escaped to neighboring 
countries who are now in hiding in Thailand, in Cambodia, or 
even in Hong Kong. There is one case that I know very well and 
have worked on. The victim, a Hoa Hao Buddhist, now in hiding 
in Cambodia, has been required by the U.S. embassy in Phnom 
Penh to return to Vietnam so as to apply through the official 
channels at his own risk.
    There is another case that I also have worked on for many 
years. This is the case of Mr. Lam A Lu, a Montagnard, an 
Evangelist, and an FULRO member who had fought alongside a Mr. 
Y-Hin Nie, one of today's witnesses, until he was ambushed and 
wounded and captured by the communists. He later escaped from 
prison and went to Hong Kong. Despite seven bullet wounds on 
his body to attest to his claims of persecution and despite the 
many verifications by his fellow Montagnards from North 
Carolina, he had been denied refugee status by the U.N. High 
Commissioner for Refugees on the ground that his story was not 
believable. He was repatriated in 1996.
    Since then, he has been hiding somewhere in Vietnam, too 
scared to go home to register for a family registration which 
is required if he wants to get access to an interview under the 
ROVR program. By the way, he had signed up for the ROVR 
program, but he could not get access to the interview. So this 
man is in limbo.
    These statistics also obscure the fact that Vietnam has 
repeatedly reneged on its promised cooperation with ROVR and 
has dragged its feet, causing an 18 month delay in the 
implementation of the program. Actually, immediately after 
President Clinton normalized relations with Vietnam, the 
Vietnamese Government reneged on its promise on ROVR.
    Six months after the date the State Department had 
initially expected to wrap up the program, which was September, 
1997, 4,000 names are yet to be cleared by Vietnam for 
interview under that program.
    These statistics also ignore the large number of very 
compelling cases, often of special interest to the U.S., who 
continue to be denied access to interviews or exit permits 
under both ROVR and ODP. They include many Montagnard, members 
of ethnic minorities--for instance, Nung and Chinese 
minorities--former U.S. Government employees, veterans of U.S. 
Special Forces, former political prisoners, religious leaders 
in detention, spouses and children of American citizens, et 
cetera.
    These statistics also ignore the rampant and systematic 
corruption at all levels in the Vietnamese Government. Many 
applicants must pay from hundreds to thousands of dollars in 
exchange for exit permission.
    Mr. Chairman, you probably have heard many stories from 
Montagnard in North Carolina whose families must have paid 
thousands of dollars in order to get out of Vietnam. 
Considering Vietnam's annual average income of only $300 per 
family, very few victims of persecution can afford that kind of 
money and, therefore, access to those programs. Such monetary 
extortion clearly violates the Jackson-Vanik amendment.
    Waiving Jackson-Vanik at this time means no light at the 
end of the tunnel for these victims of persecution. It will 
also dim the hope for improved human rights in Vietnam. Sure 
enough, even the bravest dissidents will feel betrayed and 
discouraged by a U.S. policy that clearly favors the oppressor 
over the oppressed.
    In order to avoid such a catastrophic consequence, I offer 
the following recommendations.
    First, the U.S. should demand that Vietnam satisfactorily 
resolve all cases, ROVR and ODP, that are of interest to the 
U.S. and particularly cases raised by Members of Congress as a 
condition for the waiver.
    Vietnam can easily resolve all those cases by tomorrow if 
it wants to. There is no reason why it cannot. The Vietnamese 
Government has total control over the country, so there is no 
excuse here. And let us not accept just promises or promising 
rhetoric. Let us demand concrete results, at least on those 
cases, of course, especially those cases.
    Second, even if Vietnam has satisfactorily demonstrated its 
cooperation, the waiver should only be announced with a clear 
message that it will be rescinded at the first sign of 
Vietnam's change of heart. Vietnam has already broken too many 
of its promises. We need to keep its feet to the fire 
constantly.
    Finally, I believe that it would help if the Senate Foreign 
Relations Committee request an independent investigation by the 
General Accounting Office into each and every single case of 
interest to the U.S. who are still being denied exit permission 
and into the corrupt practices of Vietnamese officials. Such an 
investigation will add pressure on Vietnam and force it to 
truly cooperate.
    Our policy should now focus on these victims of persecution 
for the very reason that our past policy has made it almost 
impossible for them to ever escape from Vietnam.
    These known cases of special interest to the U.S. should be 
the litmus test of Vietnam's cooperation and of the success of 
the ROVR and ODP programs, not the statistics often quoted out 
of context by the State Department.
    There is no reason whatever for the U.S. Government to give 
away our last leverage in such haste, in such hurry, and, at 
the same time, to ignore the plight of victims of persecution 
which U.S. policy has only made worse.
    In closing, I would like to ask your permission, Mr. 
Chairman, to include a joint statement by 23 Vietnamese 
American communities across the country and the Vietnamese 
Interfaith Council in America as part of the official record of 
this hearing.
    Thank you, Mr. Chairman.

    [The prepared statement of Dr. Nguyen and the additional 
material to which he referred appear in the Appendix.]

    The Chairman. You are quite welcome, sir, and thank you for 
a fine statement.
    I think we should emphasize at every point that these great 
people are being persecuted because they stood with the United 
States in a conflict. They are being persecuted because they 
did not join in a communist effort to destroy our men and women 
and our armed forces. Sir, you may proceed.

     STATEMENT OF RONG NAY, ASSISTANT DIRECTOR, MONTAGNARD 
FOUNDATION, MONTAGNARD HUMAN RIGHTS GROUP, CARY, NORTH CAROLINA

    Mr. Rong. Good morning.
    Honorable Senator Helms, ladies and gentlemen, my name is 
Rong Nay. I am a member of the Human Rights Committee of the 
Montagnard Foundation. I represent the Montagnard people living 
both in the United States and the central highlands of Vietnam.
    Today I am privileged to relate to you the violations of 
human rights of the Montagnard in the central highlands.
    Who are the Montagnards? We call ourselves the ``Dega,'' 
and the French call us the ``Montagnards.'' This is because we 
live in the mountains, in the central highlands, of Vietnam. 
The Vietnamese also call us ``Moi,'' or ``savages.''
    We, the Montagnards, are indigenous people living in the 
central highlands for over 2,000 years. The last 150 years, our 
land was a target for imperialistic invasion. The Montagnards 
could not demand or defend their freedom and there was a silent 
cry from the Montagnard people which is now being heard.
    We are today a voice for the voiceless, who speak for those 
who are forbidden to speak. We stand for the rights of those 
whose rights have been stripped away.
    We, the survivors, living in the United States, strive to 
uphold the human dignity of those living in the central 
highlands whose voices remain silent and whose borders are 
closed.
    In the war between the French and the Vietminh in Vietnam 
from 1945 to 1954, the Montagnard troops fought and died for 
the French and the Vietnamese. During the U.S. Government 
backing of the South Vietnamese Government from 1962 to 1972, 
the Montagnard people, troops, had been trained and fought 
alongside the American Special Forces.
    The Montagnards became caught in the middle and were 
victims of the wars. Both the North and South Vietnamese 
Governments exterminated our people and occupied our land.
    More than a million of the Montagnard people were killed 
while 85 percent of the Montagnard villages have been destroyed 
or abandoned.
    After Hanoi occupied South Vietnam in 1975, all the 
property of the Montagnard people had been confiscated. Our 
basic freedom, politics, and religious activities are outlawed. 
Our legal rights cease to exist under communist law. All the 
Montagnard leaders and preachers have been arrested and jailed.
    I was in a communist jail for 1 year. On January 16, 1976, 
I was the first prisoner to escape into the jungle where I led 
thousands of Montagnard resistance forces while thousands of 
Montagnard people fled to the jungle. We fought against the 
Hanoi Government's extermination of the Montagnard people.
    After 12 years, we realized we could not survive and asked 
to be refugees in the United States. We continue struggling 
because the days of our independence are gone.
    Today, our situation has become even worse. The Hanoi 
Government brought 2 million Vietnamese from the North to 
settle throughout the central highlands and forced the 
Montagnards to leave their villages and go live in the 
mountains where the land cannot grow anything.
    Hanoi refuses to permit Montagnards to emigrate. My wife 
and four children had permission withheld for 4 years because I 
was involved with the Montagnard Resistance forces.
    Because of the powerful pressure from the United States 
Government--thank you, Senator Helms--my wife and four children 
came to the United States on January 14, 1994.
    I cannot return home because the Hanoi Government still 
considers me as the enemy. Many Montagnards are qualified as 
legal immigrants, but their exit visas were not allowed. 
Correspondence from U.S. immigration officials does not reach 
Montagnard villages because the police confiscated the paper.
    The Montagnard have been blocked from international 
humanitarian aid since the collapse of Saigon in 1975. In 1980, 
the foreign NGO's were permitted in Vietnam for relief, but no 
American or other foreign humanitarian aid was permitted to go 
to the central highlands for the Montagnards. Lutheran Family 
Services Highlands Assistance Project was only allowed one to 
deliver aid directly to leprosy clinics and to Montagnard 
villages. We desperately need the opportunity to develop.
    We, the Montagnard people, stand up and strive for our 
rights to live freely and peacefully such as the people of the 
free world.
    The U.S. Government has been normalizing diplomatic 
relations with Vietnam. If the U.S. Government gives aid to 
Hanoi, Vietnamese will never help the Montagnards. Hanoi is 
currently using financial aid to clear thousands of acres of 
jungle in the central highlands and speed up their program of 
genocide of the Montagnard people.
    With our humble tears, we ask the U.S. Government to help 
us negotiate the following before granting Most Favored Nation 
Status to Vietnam.
    Number one is convince the Vietnamese Government of the 
following: the rights of the Montagnard people to live in the 
central highlands, stopping forced assimilation and stopping 
the program of genocide; to permit land and property ownership 
for the Montagnards in the central highlands; permitting the 
Montagnards to live in their own villages with their own 
culture, traditions, tribal courts of law, schools, churches, 
and dispensaries.
    Number two is freedom to receive exit visas and access to 
the Orderly Departure Program.
    Number three is access for humanitarian aid to reach the 
central highlands.
    Thank you so much, Senator Helms and others today for 
giving us hope. The Montagnard people pray for your help. Thank 
you.
    The Chairman. You have it as best as I deliver it. I think 
you know that.
    Sir, you are the last but not the least. You may proceed, 
sir.

STATEMENT OF Y HIN NIE, PRESIDENT, MONTAGNARD DEGA ASSOCIATION, 
            INCORPORATED, GREENSBORO, NORTH CAROLINA

    Mr. Nie. Good morning Hon. Senator Helms, ladies and 
gentlemen. My name is Y Hin Nie. On behalf of the Montagnard 
Dega Association, I want to thank Senator Helms for his help in 
bringing about this hearing. Further, I want to thank the 
members of the Senate Foreign Relations Committee and the State 
Department for their interest and assistance in the matter of 
human rights and the plight of the Montagnard community in 
Vietnam.
    The Montagnard people believe in the trustworthiness of the 
United States of America as the leader in democratic freedoms. 
Particularly, we place our trust today in this hearing.
    Since 1975, most of our people who immigrated to the United 
States as refugees were combatants against the communist 
tyranny in the aftermath of Vietnam's unification.
    Allow me to sketch our role in the history of Vietnam and 
the United States. I will then focus on the human rights 
violations of religious persecution and restrictions on the 
free emigration for our Montagnard people suffering in the 
central highlands of Vietnam.
    The Montagnard people were among those who suffered the 
most from the Vietnam War. Our recent history is rooted in 
events during and after the war. During the Vietnam War, many 
of us were compatriots with U.S. Army groups.
    On March 3, 1998, the History Channel profiled the Special 
Forces' role in the Vietnam War prior to 1975. Retired Green 
Berets who were interviewed there stated that the Montagnards 
would sacrifice their lives to protect Americans' lives.
    Our association with the Special Forces was evidence of the 
Montagnards' status as traitors to the post-1975 Communist 
Government of Vietnam. Consequently, restrictions were placed 
on Montagnards and those who might wish to help.
    The Government of Vietnam continues to restrict our people. 
Nongovernmental organizations are not allowed access to the 
central highlands, even organizations wanting only to help 
leprosy victims, orphans, or those desperately ill Montagnards 
with serious health problems.
    Our people also cannot enjoy educational opportunities in 
Vietnam or abroad. Montagnards who are eligible to join loved 
ones in the United States have great difficulty obtaining their 
exit visas. And our Christian believers struggle daily to hold 
on to hope and their faith in the face of fear and persecution.
    Our multicultural highlands people champion religious 
integrity. Within our highlands community we have a strong and 
growing Christian population of Evangelical Protestants and 
Roman Catholics. About 200,000 Montagnard Christians have been 
persecuted. Prior to 1975, the Americans and French brought the 
news of Christ into the central highlands of Vietnam.
    We, the Montagnard Christians, were growing and increasing 
with approximately 180,000 fellowships. We were free to 
practice our Christian church activities.
    Unfortunately, after 1975, churches have been closed. The 
authorities of Hanoi have used 80 percent of the churches for 
storage, have used 15 percent of the church facilities for 
government staff meetings, and have condemned 5 percent of the 
churches.
    Tragically, 50 percent of those who were pastors, priests, 
and deacons are dead or are missing. Hanoi security tightly 
controls the surviving 50 percent of the pastors.
    Today, despite the government's interference and 
restrictions, Christian numbers are increasing. God is making 
miracles with his followers who do not stop going out to tell 
the gospel of God. Sometimes the government security captures 
them. On other occasions, security officers offer rewards of 1 
million Vietnam dong for turning in the Christians.
    Furthermore, security threatens to kill Christians or to 
put them in jail for life if they continue to practice their 
religion. Hanoi authorities always investigate Montagnard 
believers. The authorities in Hanoi assert that Christians are 
believers in an American religion and are involved with the 
CIA.
    Consequently, the authorities of Hanoi have persecuted, 
tortured, and jailed 20 percent of the Christians. In short, 
Montagnard Christians have been unable to practice their 
religious beliefs.
    Similarly, the Hanoi Government has denied exit visas for 
spouses and children, as we know.
    We want Vietnam to become a free, democratic, progressive 
country where all citizens will be equally treated regardless 
of race, religion, gender and ethnic background. We believe the 
only way forward for our people is within a peaceful, 
progressive, and united Vietnam, free of racism, territorial 
conflict and religious intolerance.
    When Vietnam has true equality for all its citizens, then 
Montagnard families will have opportunity to emigrate just as 
others depart from Vietnam. Many Montagnard had to wait year 
after year to be reunited with loved ones. They are eligible to 
emigrate from Vietnam, but they cannot obtain their exit visa. 
Often, letters from the U.S. ODP officer never reach Montagnard 
villages because local security destroys the information.
    We feel so sad that our people are being punished because 
we fought for freedom, because we fought side by side with our 
American brothers.
    The war is over. Families should be together.
    Now is the time of healing and peace. Within the United 
States, we increase in citizenship. In the future, we hope to 
be able to support any projects that develop a peaceful, 
progressive, multicultural path for our Montagnard people in 
the highlands. We hope that the Hanoi authorities will allow 
our people to develop and allow our highlands brothers and 
sisters to practice their religion and preserve their culture.
    If Hanoi authorities want full diplomatic normalization 
with the United States of America, we suggest that the Hanoi 
authorities allow freedom of emigration, freedom of religion, 
access of humanitarian aid to reach the central highlands, 
equal opportunity for our people, and to stop their persecution 
of our tribal people for their former relationship with the 
U.S. Army.
    Today, on behalf of the Montagnard people, we would like 
for the Senate Foreign Relations Committee to note the 
previously mentioned human rights violations of religion and 
emigration. I ask you to report this issue to the President of 
the United States. The Montagnard Christian churches look to 
you to pray for them and to support these concerns.
    By the grace of God, God will answer your prayers. We also 
request that the committee bring this issue to the attention of 
the Government of Vietnam so that Montagnards' rights may be 
recognized and acted upon.
    God bless you and the United States of America. Thank you, 
Senator.
    The Chairman. Thank you, sir.
    I have several questions that I am not even going to bother 
to ask because you have answered them in your respective 
statements.
    I think it is clear that the persecution of your people is 
the result of your having been anti-communist during the 
confrontation in Vietnam. I think it is perfectly obvious that 
there is still resentment because you stood with the United 
States in that conflict and you stood with the thousands of 
American soldiers who were sent halfway around the world to 
fight a war they were not allowed to win.
    So that is what we have. I guarantee you that, to the best 
of my ability and the length of my cable tow--and I think you 
understand what I am saying when I say that--I am going to 
insist that you be restored of your rights.
    So, I thank you.
    Without objection, and I don't think I will hear any, we 
will have the entire proceedings of this hearing printed for 
adequate distribution for people who do not know what is going 
on over there and who have no way of knowing because this has 
been the least reported story of our time insofar as I know.
    Now I have often said that the best speeches I have ever 
made are the ones I make driving home after I made my speech. 
It occurs to me, and I say this with every hearing over which I 
preside, to ask does any of you have any further comment that 
you might wish you had said earlier?
    I will start with you, Mr. Sommer.
    Mr. Sommer. Thank you, Mr. Chairman. One thing I think 
needs to be said is that the U.S. Government especially has a 
moral obligation to the Montagnard people.
    In 1961, when we approached them to serve with us, they had 
not been involved in the fray. But we recruited them, we 
trained them, we armed them, and then in 1975, we left them 
twisting in the wind. We certainly owe them not only our 
deepest respect but we also have a moral obligation to do 
everything that we can to try to be of assistance to them.
    One thing that I failed to mention during my statement, and 
if you have no objection, Mr. Chairman, is I would like to 
enter into the record of the hearing a copy of the letter that 
we wrote to President Clinton on February 2 from the American 
Legion opposing the waiving of the Jackson-Vanik Amendment.
    The Chairman. Without objection, and there is none, it will 
be made a part of the record.
    Mr. Sommer. Thank you, sir.

    [The information referred to follows:]

                                                  February 2, 1998.
Honorable William Jefferson Clinton,
President of The United States,
The White House,
1600 Pennsylvania Avenue, NW,
Washington, DC 20500,

Dear Mr. President:
    The American Legion is extremely concerned at National Security 
Advisor Samuel Berger's recent pronouncements that your Administration 
is seriously considering waiving the requirements of the Jackson-Vanik 
Amendment (19 U.S.C. 2432 (a)). It is our considered opinion that it is 
premature to allow the Export-Import Bank to begin financing projects 
ill Vietnam and likewise, to permit the Overseas Private Investment 
Corporation to begin operations there. Obviously, these would be giant 
steps toward the granting of Most Favored Nation status for the 
Socialist Republic of Vietnam.
    Jackson-Vanik renders communist governments ineligible for the 
aforementioned economic concessions until their citizens are guaranteed 
unfettered freedom of emigration. Tile American Legion can assure you 
that this is not the case today in Vietnam. We have been actively 
involved in the refugee situation, were vehemently opposed to the 
forced repatriation of refugees from countries of first asylum absent 
the opportunity to engage in a fair and equitable interview process, 
and are cognizant that Vietnamese officials are not now abiding by the 
provisions of the Resettlement Opportunities for Vietnamese Refugees 
(ROVR) program. Of course, our primary concern in this regard is the 
well being of these Vietnamese people who served along-side our 
military personnel during the war, those who worked for the United 
States government and their families. We have a moral obligation to 
them.
    Aside from the provisions of Jackson-Vanik, 19 U.S.C. 2433, 
provides authority for the President to withhold nondiscriminatory 
trade treatment to countries based on cooperation with our efforts to 
account for American military and civilian POWs and MIAs in Southeast 
Asia. It is contingent upon cooperation to achieve a complete 
accounting of the POWs and MIAs, to repatriate such personnel who are 
alive, and to return the remains of such personnel who are dead to the 
United States.
    The government of the Socialist Republic of Vietnam is not 
cooperating anywhere near the extent to which it can. A degree of 
cooperation is being offered in the conduct of the joint field 
activities, where our Joint Task Force - Full Accounting and Vietnam's 
Office on Seeking Missing Personnel are excavating crash sites and 
other incident locations. Of course, the United States is paying 
Vietnam handsomely for that assistance.
    It is the unilateral cooperation by the central government that is 
not forthcoming, nor has it been since you first took office in January 
1993. In August 1993, a high ranking State Department official 
specifically asked the Vietnamese government to turn over remains and 
information relating to over eighty cases involving over ninety 
individuals categorized as Last Known Alive and Special Remains Cases. 
To the best of our knowledge, very little, if any, information that 
correlates to those cases has been turned over by the SRV government.
    National Commander Anthony O. Jordan and the undersigned met with 
several high ranking Vietnamese government officials in December 1997, 
and requested, among other things, increased unilateral cooperation in 
helping to resolve those eases where the incidents took place in the 
areas of Laos and Cambodia that were controlled by the Peoples Army of 
Vietnam during the war. The American Legion and others, including 
representatives of the Families, have formally requested this as well 
as cooperation on issues of a similar nature for several years. We 
continue to receive empty promises, but no substantial progress has 
been forthcoming in any of these areas.
    The third concern of The American Legion is Vietnam's abysmal 
record on human rights. It is necessary to remain mindful that the 
Vietnamese government continues to be a communist regime that actively 
suppresses the human rights of its citizens. Unfortunately, despite the 
lifting of the trade embargo and the normalization of diplomatic 
relations, there has been 110 appreciable improvement. The only 
apparent change is the diminished level of pressure that the US 
government is placing on Vietnam to enhance its human rights practices. 
The Vietnamese government continues to arrest and imprison political 
and religious activists and hold them at will. Hanoi does not suffer 
those who believe in freedom and democracy to espouse their feelings.
    Mr. President, The American Legion urges you in the strongest 
possible terms to refrain from proposing a Jackson-Vanik waiver until 
such time that considerable cooperation and improvement are advanced by 
the government of Vietnam in these three important areas.

            Sincerely,
                                        John F. Sommer, Jr.
                                                           Director

cc: Honorable Madeline K. Albright
    Honorable William Cohen
    Honorable Samuel Berger

    The Chairman. Do you have a further comment you would like 
to make, sir?
    Dr. Nguyen. Yes, sir. I actually have three comments that I 
have left out.
    First, I fully agree with Secretary Taft and her comment 
that Vietnam is only good at reacting to pressure. Therefore, I 
think that we should maintain and sustain a pressure. Giving 
away Jackson-Vanik at this time will only alleviate that 
pressure. I don't see any reason why Vietnam should continue to 
cooperate with our government in that regard once they got the 
waiver.
    There was also mention of the possible rescinding of that 
waiver. But, as you very well know, once it is given out, it is 
very hard to get it back.
    The second comment is that Ms. Taft also mentioned the 
number of 900 Montagnards being on the list of those waiting to 
be interviewed. I think that figure has left out a lot of 
others who do not even have access to the program.
    As you may know, there are many political prisoners, former 
political prisoners, dissidents who are now in exile in remote 
areas or ethnic minorities, including Montagnard, who have been 
living in the central highlands away from the big cities. They 
do not have access to these programs because of the local 
authorities' policy not to let them contact foreigners.
    Actually, I know of several cases of returnees who are now 
in detention in Vietnam. They have been told very explicitly 
never, ever to contact foreigners, including ROVR and ODP 
officials. So they have been left out of the list.
    Finally, I would like to mention that late last year, I 
went on a trip with Mr. Grover Joseph Rees, who is the Chief 
Counsel of the House Subcommittee on International Operations 
and Human Rights. During that trip, we met with several 
dissidents in Vietnam. We asked every single one of them one 
question, whether in its expansion of trade with Vietnam should 
the U.S. Government expect that trade will bring along with it 
democratic values, human rights, et cetera, or should we link 
human rights with every step in our normalization of trade with 
Vietnam.
    To my surprise, at least, all of those dissidents, 
including some active members of the Communist Party--all of 
them--said you should, the U.S. should link human rights with 
trade. No doubt about that. Otherwise, the U.S. Government will 
only provide the Vietnamese Government, the Vietnamese 
Communist Party with more resources, with more means to 
suppress democracy.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Rong?
    Mr. Rong. As for me, I, too, am concerned about the 
possibility of a Montagnard interview before they can come to 
the United States. A lot of the Montagnards are living in the 
central highlands, far away from Saigon. They have no 
transportation and they cannot drive over there.
    Another problem is many correspondences from the Office of 
Immigration over here does not reach the Montagnards' families 
because the police confiscate it. They cannot get any 
information. So many Montagnards do not interview.
    The blame, they say, is theirs because they do not want to 
go to the United States. But that is not true. It is because of 
the problem that they don't know about their options.
    We want to help the office organize a team to go to the 
central highlands, go to Pleiku and Lam Dong, to interview 
directly the Montagnard people. If things stay the same as 
before, it is too difficult for the Montagnard to leave the 
country.
    Thank you.
    The Chairman. Thank you, sir.
    Mr. Nie?
    Mr. Nie. I am concerned about the Special Forces issue, 
that is, if we have 50 persons of that here today in America, 
might I ask you can we get Veterans benefits as the Hmong get 
recognition by the USA? If that will be possible, it would be a 
little bit of help for those 50 persons who live here in 
America.
    The Chairman. Thank you very much, gentlemen.
    Again, I want to tell you that your testimony has been very 
interesting, though in some respects depressing. But it is 
something that ought to be known by the American people. I am 
going to do my best to make sure that it is.
    If there be no further business to come before the 
committee, we stand in recess.
    [Whereupon, at 11:47 a.m., the committee recessed.]


                            A P P E N D I X

                              ----------                              


               Prepared Statement of Hon. Stanley O. Roth

    Mr. Chairman, I am pleased to have the opportunity to join 
Assistant Secretary Taft in speaking today on the situation of the 
Montagnard people in Vietnam. I would like to put the situation of the 
Montagnards in the context of our broader relationship with Vietnam. 
But first, I would like to emphasize to you the seriousness with which 
we view the situation confronting Montagnards in Vietnam.
    The sacrifices and suffering endured by thousands of Montagnards 
who fought alongside Americans in Vietnam will never be forgotten in 
this country. We recognize that the cost to the Montagnards of their 
participation in the war was devastating and that it is something we 
cannot and will not forget. We recognize, too, that living conditions 
in the central highlands are much more severe than in other parts of 
Vietnam and that Montagnards, in particular, have limited access to 
necessities such as medical care and education.
    We will continue to press the Vietnamese government to issue exit 
permits to all Montagnards who are eligible to emigrate to the U.S. 
through refugee programs such as QDP and ROVR and normal immigrant 
visas. In that connection, let me underscore our conviction that 
granting a Jackson-Vanik waiver in response to measurable progress on 
the ground will promote the objectives of the Jackson-Vanik legislation 
by leading to freer emigration from Vietnam.
    Our efforts to move forward on Montagnard and other emigration 
issues are part of a broad agenda with Vietnam. The first and most 
important item on that agenda is obtaining an accounting of the missing 
from the Vietnam War. We continue to receive excellent cooperation from 
the Vietnamese government, which has permitted the normalization of 
relations in other areas. Obtaining the fullest possible accounting for 
POW/MIAs remains our highest priority in relations with Vietnam. 
Normalization in other areas has not lessened the centrality of POW/MIA 
accounting to the relationship, and every high level USG official to 
visit Vietnam has stressed this point.
    The presence of Ambassador Peterson, a former POW, in Hanoi is in 
itself a symbol of the importance of the POW/MIA issue to Americans, 
and his energy and commitment to the effort ensure that we will do our 
best to continue to get results. Sustaining progress on POW/MIA 
accounting will remain our highest priority objective in the future.
    We have important national interests at play in Vietnam. We believe 
it is in our interest to promote Vietnam's economic prosperity and 
integration into the regional and international structures that enhance 
regional stability and free trade. Among these are our dialogue on 
human rights, and our growing cooperation on counter-narcotics. 
Economic normalization, which we are working to advance, encompasses a 
range of measures to promote trade and investment so that American 
businessmen can take advantage of the considerable potential in this 
dynamic and emerging market.
    As with POW/MIA accounting, our contacts with Vietnam on migration 
issues predate normalization. As Assistant Secretary Taft can explain, 
certain minority groups such as the Montagnards have encountered 
obstacles in emigrating from Vietnam. Nevertheless, Vietnam's record in 
permitting free emigration has improved considerably since 1975. The 
Orderly Departure Program (ODP) has been a solid success. Over 480,000 
Vietnamese have emigrated to the U.S. through ODP. Many of these are of 
special interest to the U.S., such as former detainees in reeducation 
camps. Despite this progress to date, I would like to state 
unequivocally that we will continue to press the Vietnamese government 
to provide fair treatment to all who are eligible for emigration to the 
U.S., including the Montagnards.
    The question of free emigration is related closely, as you know, to 
the waiver of the Jackson-Vanik Amendment. Jackson-Vanik prohibits the 
extension of certain U.S. economic benefits to countries that, among 
other things, deny their citizens the right or opportunity to emigrate. 
The statute authorizes the President to waive the Jackson-Vanik 
requirements if doing so will lead to freer emigration from that 
country.
    We have recommended the President waive the Jackson-Vanik amendment 
at this point because of significant improvements over the past year in 
Vietnam's processing of exit permits for the Resettlement Opportunity 
for Vietnamese Returnees (ROVR) cases. We will continue to monitor its 
performance closely, using the prospect of renewal of the waiver to 
press for further improvements in freedom of emigration. In this way, 
the waiver will support the objectives of the Jackson-Vanik 
legislation, promoting freedom of emigration from Vietnam.
    A waiver of Jackson-Vanik is the next step in economic 
normalization, a goal of both our countries However, a waiver of 
Jackson-Vanik does not signal that we are ready to grant MFN status to 
Vietnam. MFN will require completion of a bilateral trade agreement and 
approval of the agreement by both houses of Congress.
    A Jackson-Vanik waiver would, however, remove a key impediment to 
extending export promotion and trade and investment support programs to 
Vietnam, including the Export-Import Bank, Overseas Private Investment 
Corporation (OPIC), USDA PL-480 and GSM export credit programs and 
Maritime Administration Title XI programs. Without these programs, U.S. 
companies are often at a disadvantage in competing with foreign firms 
in the Vietnamese market.
    Associated waivers of Foreign Assistance Act provisions are 
prerequisites for most U.S. assistance to Vietnam. An exception is 
humanitarian assistance to Vietnam, which has been provided for 
prosthetics and rehabilitation services to war victims and to displaced 
children and orphans. A broader U.S. assistance program, among other 
things, will help the U.S influence Vietnam's progress toward an open 
economy. It will focus largely on the transfer of knowledge to serve as 
a catalyst for further structural and institutional change.
    Human rights is an important component of our relationship with 
Vietnam. We have made clear to Vietnamese leaders that progress in this 
area will be necessary for our relationship to fully develop Although 
there has been a modicum of improvement in the area of personal 
freedoms, including reduced government interference in daily life, 
Vietnam's overall human rights record has been poor. There have been 
credible reports that local Vietnamese officials have denied ethnic 
minorities, including the Montagnards, access to education, employment 
and other services.
    We have initiated a formal human rights dialogue in which we have 
conveyed our concerns about human rights in both general and specific 
human rights cases. Secretary Albright raised these issues prominently 
with Vietnamese leaders during her visit last June to Vietnam. The 
status of ethnic minorities and specifically Montagnards is a subject 
we will continue to raise in the context of our human rights dialogue.
    Vietnam has historical interests in the region, particularly in 
relation to its neighbors in Cambodia, Laos, China and in the South 
China Sea. Dialogue among the U.S., Vietnam and its neighbors can 
contribute to the peaceful resolution of conflicting interests. 
Vietnam's membership in ASEAN and APEC, its participation in the ASEAN 
Regional Forum, and its growing ties to regional and world markets 
exemplify the new constructive role that it is beginning to play. This 
is a role that we should encourage. By developing bilateral ties as we 
are doing, we can encourage Vietnam to behave responsibly in the region 
and the world.
    Let me conclude by saying that nothing is more important in our 
relations with Vietnam than meeting our commitments--to the families of 
our POW/MIAs and to those who served beside us. We will do everything 
in our power to live up to these important responsibilities.

                               __________

                Prepared Statement of Hon. Julia V. Taft

    Mr. Chairman, members of the committee, I welcome this opportunity 
to be here today to discuss with you our experiences with processing 
Montagnards for admission to the United States. I look forward to your 
questions because I believe it is only when our mutual concerns are on 
the table that we can most effectively move forward together.
Montagnards
    The Montagnards are ethnic minorities from the Central Highlands of 
Vietnam. Many of the Montagnards fought with U.S. troops, including the 
Special Forces, during the Vietnam conflict. At the end of the war, 
some of the highlanders escaped SRV captivity and fled into the jungle 
where they joined a Montagnard resistance movement known as ``FULRO,'' 
(FULRO stands for United Front for the Liberation of Oppressed Races) 
and continued to fight the Vietnamese Communists. These resistance 
activities continued until the early 1990's.
    In 1985, a group of 201 Montagnards made their way to the Thai-
Cambodian border following ten years' of resistance activities based in 
the jungles of Cambodia against the Vietnamese government. This group 
was processed for admission to the United States as refugees and was 
resettled in North Carolina in November 1986.
    Eight years later, in September 1992, another 398 Montagnard 
resistance fighters were discovered by United Nations Peacekeeping 
forces in northeastern Cambodia. Because of security concerns in 
Cambodia at the time, the group was quickly processed and moved to the 
United States. This group was also resettled in North Carolina.
    These Montagnards were resettled in North Carolina because of the 
intense interest of North Carolina communities, led by Vietnam veterans 
in the area, in resettling the Montagnards. Because of the outstanding 
record of North Carolina and the Lutheran Immigration and Refugee 
Service in refugee resettlement, the State Department agreed to this 
concentrated approach to Montagnard resettlement. Since the U.S. 
refugee resettlement program started, 16,225 refugees have resettled in 
North Carolina, nearly 6,200 of whom are Vietnamese.
Orderly Departure Program (ODP)
    During the late-1970's and early-1980's when large numbers of 
people left Vietnam on boats, only a few Montagnards fled in this 
manner. The majority of the more than 1,600 Montagnards who have been 
admitted to the U.S. as refugees have been processed through the in-
country refugee processing program known as the Orderly Departure 
Program (ODP). ODP was originally established in mid-1979, when the 
international community, led by the United Nations High Commissioner 
for Refugees (UNHCR), sought a legal and safe means for people to 
depart Vietnam without having to resort to unsafe, clandestine boat 
departures. The United States and twenty-nine other countries 
originally participated in the program. UNHCR's involvement ceased 
during the early 1990's. Under ODP, Vietnamese are processed for 
admission to the United States as refugees, Amerasian immigrants, or 
immigrant visa beneficiaries.
    Since late-1979 the program has considered applications from 
persons who were imprisoned for substantial periods as a result of 
their previous association with the U.S. or were otherwise closely 
associated with U.S. policies and programs. Applications for family 
reunification by spouses, children, parents, and siblings of residents 
of the U.S. were also considered.
    Currently, ODP is processing the remaining caseload of former re-
education camp detainees which includes Montagnard cases, qualified 
ROVR (Resettlement Opportunity for Vietnamese Returnees) applicants, 
some Amerasians, and current immigrant visa cases.
    Since its inception, more than 600,000 Vietnamese have been 
processed through the ODP. Of this number, some 486,000 Vietnamese have 
been approved for admission to the U.S., including 230,949 who were 
admitted as refugees.
Montagnard Processing Under ODP
    Since 1985, when we began keeping records that identified 
Montagnards specifically within the overall ODP population, our records 
indicate that 2,504 Montagnards have been determined to be eligible for 
consideration for admission to the U.S. as refugees. Of this number, 
1,042 Montagnards were approved by INS for admission, 531 were denied 
at the time of interview or found not qualified by INS, and 893 were 
scheduled for interview but failed to appear. An additional 38 persons 
are awaiting INS interview or final INS interview decisions.
    Persons found not qualified for processing for the most part have 
been those who did not qualify for the former reeducation camp 
detainees program because their reed detention was not due to pre-1975 
association with the U.S. or South Vietnamese governments.
    Of particular concern to the United States are the 893 Montagnards 
who have been scheduled for an INS interview but who have failed to 
appear. Many of these applicants have informed us that this has been 
due to their inability to secure exit permission, a requirement of the 
Vietnamese government. This is a serious problem.
    Also of great concern to us is the failure of Montagnard 
beneficiaries of Immigrant Visa (IV) petitions to appear for interviews 
with U.S. consular officers. ODP records indicate that 58 Montagnards 
have current visa petitions on file but 30 have failed to attend 
scheduled interviews, many citing their inability to obtain exit 
permission from the SRV. The remaining individuals have not responded 
to ODP inquiries about their situation. ODP will not terminate any 
Montagnard IV cases if lack of an exit permit is the reason for not 
pursuing the application.
    While it is possible that some Montagnard refugee and immigrant 
visa applicants fail to appear for their scheduled interviews due to 
poor communications and transportation between the Central Highlands 
and Ho Chi Minh City, we doubt that this is the primary reason. Rather, 
it appears that the Vietnamese government has denied passports and exit 
permits to the relatives of those Montagnards who are suspected of 
involvement in anti-government activities, such as FULRO.
    To highlight the importance of the lack of access for Montagnards 
and other ODP processing issues, in January I traveled to Vietnam to 
discuss with Vietnamese officials ways to complete the processing of 
the remaining ODP cases. Since arriving in Hanoi in May 1997, 
Ambassador Peterson has regularly called on the Ministers of Interior 
and Foreign Affairs as well as other government officials to emphasize 
the priority the United States Government places on this issue and to 
urge the Vietnamese government to facilitate access to ODP for eligible 
Montagnards and other Vietnamese applicants. Throughout the years of 
ODP's existence, access to ODP for the Montagnards has been a standard 
item on the ODP agenda at almost every official meeting with the SRV to 
discuss ODP processing.
    Last October, Vietnam announced that is was taking steps to 
accelerate procedures to clear ROVR applicants for interview. These new 
procedures have resulted in the clearance for interview of nearly 
14,000 ROVR applicants during the past four months. During my 
discussions in Hanoi, Vietnam agreed to further ROVR program 
modifications to the departure clearance procedures for INS-approved 
ROVR cases. The SRV has expressed the desire to successfully conclude 
all extraordinary U.S. admissions programs so that we can move toward 
establishment of a ``normal'' migration relationship consistent with 
normalization of our overall bilateral relationship. We are hopeful 
that the SRV will shortly agree to similar expedited processing 
procedures for the Montagnards and other ODP programs.
    I am pleased to note that, on February 26, the Vietnamese Ministry 
of Foreign Affairs informed us that staff from the Ho Chi Minh City 
Ministry of Interior office had already travelled to the Central 
Highlands to interview some of the Montagnards on the ODP list and that 
ODP would be able to interview them soon. That is good news, but I want 
to assure you that we will not put this issue to rest until we are 
granted access to all eligible Montagnard cases.
McCain Amendment
    Of vital importance to the U.S. government is the completion of the 
processing of the remaining reeducation detainees caseload in Vietnam, 
the program that includes the Montagnard refugee cases. To complete 
this processing, the Administration requests the support of the 
Congress for a quick extension of the McCain Amendment which provides 
for the admission of the single, over 21 year old children of former 
reeducation camp detainees. This provision expired on September 30, 
1997, but we believe it should be extended until March 31, 1999 in 
order to permit the humane conclusion of the program.
Conclusion
    Mr. Chairman, while we are seeing tangible progress, I want to 
assure you that we will continue to stress the importance of these 
issues in all of our dealings with the Vietnamese until all eligible 
ODP cases, both refugee and immigrant visa applicants, are permitted to 
attend their ODP interview. The Montagnards, have been and will 
continue to be at the top of this agenda.
    Finally, I would like to take this opportunity to express our 
appreciation to this committee and to all in Congress who support our 
mutual efforts to alleviate some of the world's pain by assisting 
refugees.
    That concludes my remarks. I will be happy to respond to your 
questions.

                               __________

Responses to Additional Questions Submitted for the Record to Assistant 
                       Secretaries Roth and Taft

           Responses to Questions Submitted by Chairman Helms

                  Assistant Secretaries Roth and Taft

    Question. The Vietnamese Constitution says it provides for freedom 
of worship. However, religious groups must obtain the government's 
permission to hold meetings, build places of worship and operate 
religious schools. If these groups do not obtain permission, they are 
in violation of Vietnamese law and subject to arrest. In fact, 
according to the 1997 State Department Human Rights Report on Vietnam, 
``Non-governmental organizations abroad reported continued arrests and 
government harassment'' of some Protestant ethnic groups. Has the 
Administration raised the issue of religious persecution, in particular 
with the Montagnards, in its meetings with the Vietnamese government? 
Should the U.S. be focusing more on democracy in Vietnam as a solution 
to problems in human rights as well as emigration?

    Answer. We regularly raise the issue of religious freedom with the 
Vietnamese government. During their separate visits to Vietnam last 
year, Secretary Albright and Treasury Secretary Rubin both raised 
religious freedom at the highest levels. Our Embassy in Hanoi 
frequently discusses religious persecution, including specific cases of 
detentions of religious workers, with Vietnamese authorities. Freedom 
of religion is also a major theme of our regular bilateral human rights 
dialogue.
    We have long held that progress toward democratization will lead to 
significant improvements in human rights. We therefore give great 
attention to urging the Vietnamese government to allow greater freedom 
of expression and a plurality of ideas. We also believe that our focus 
on promoting the.rule of law in Vietnam will lead to much greater 
respect for individual rights.

                        Assistant Secretary Roth

    Question. Has Ambassador Peterson and U.S. Embassy staff been 
restricted in their travels to Montagnard villages in the Central 
Highlands in Vietnam? If not, when did Ambassador Peterson and U.S. 
Embassy staff meet with Montagnards? Did they have an opportunity to 
meet with Montagnards alone or were SRV officials present during these 
visits?

    Answer. USG personnel have regular and unencumbered access to every 
area of Vietnam where Montagnards live, except for sensitive military 
zones. Teams of personnel from Joint Task Force-Full Accounting work 
constantly in every province of Vietnam, including mountainous 
provinces and in areas of high concentrations of Montagnards. 
Ambassador Peterson travelled to the Central Highlands in September, 
1997. Several Embassy officers have travelled frequently through the 
northern and central highlands on private trips without incident. Most 
recently, officers from the Consulate General in Ho Chi Minh City 
travelled there in late March and met with Montagnards. While 
encountering deep-seated poverty and a high degree of control by 
Vietnamese authorities, officers did not see indications of serious 
repression. Although traveling in a large group of consular officials, 
the officers were able to speak privately with Vietnamese-speaking 
Montagnards.

    Question. According to the 1997 State Department Human Rights 
Report on Vietnam, most Montagnards do not have access to departure 
programs and the Vietnamese government denies certain Montagnards exit 
permits necessary for emigration. Mr. Roth's testimony states ``the 
waiver will support the objectives of the Jackson-Vanik legislation, 
promoting freedom of emigration from Vietnam.'' Please explain how the 
waiver will support freer emigration? Why did the Administration 
proceed with extending trade benefits when Vietnam has not fully 
complied with the free emigration requirements of Jackson-Vanik?

    Answer. The majority of Vietnamese, including most Montagnards, do 
not qualify for resettlement in the U.S. Vietnamese who were imprisoned 
for substantial periods (usually three years or more) for previous 
association with the U.S., or who were associated with U.S. policies 
and programs, have access to the Orderly Departure Program (ODP) . 
Family reunification comprises another category.
    Since 1985, 2,504 Montagnards have been determined to be eligible 
to emigrate to the U.S. as refugees. Of these, INS has approved 1,042 
Montagnards for admission to the U.S., 531 were found to be not 
qualified or were denied, and 893 were scheduled for interview but 
failed to appear. An additional 38 persons are awaiting INS interview 
or final INS decision.
    We remain committed to obtaining exit permission from the 
Vietnamese government for those who are eligible for our programs, 
including Montagnards, and will continue to urge Vietnam to issue exit 
permits to eligible applicants.
    Vietnam has complied with the criteria for waiving the Jackson-
Vanik amendment by providing assurances that its emigration practices 
will lead substantially to the achievement of the objectives of the 
legislation, i.e. freer emigration, and by improving its emigration 
practices over the years. Vietnam's record is not perfect; however, it 
has liberalized its emigration policy considerably, by permitting the 
emigration of over 480,00 Vietnamese from Vietnam to the U.S. under the 
Orderly Departure Program (ODP) and implementing the Resettlement 
Opportunity for Vietnamese Returnees (ROVR), beginning in 1997. 
Granting a waiver of the Jackson-Vanik amendment to Vietnam will 
support freer emigration by demonstrating to the Vietnamese government 
that it can obtain tangible benefits by cooperating with us on 
emigration issues. Vietnam dramatically improved its implementation of 
the ROVR initiative as a direct result of our linkage of improved 
performance on ROVR and granting a waiver of Jackson-Vanik. The 
prospect of annual renewal of the Jackson-Vanik waiver will encourage 
Vietnam to further liberalize its emigration policies.

    Question. The Vietnamese government has restricted humanitarian aid 
to the Montagnard population living in the central highlands. Lutheran 
Family Services and other NGO's (nongovernmental organizations) are 
prevented from carrying out medical, educational and development 
programs targeted at the ethnic minority populations. Has the State 
Department asked the Vietnamese government why assistance continues to 
be restricted to the Montagnards in the highlands?

    Answer. We have long been aware of the problems encountered by 
Lutheran Family Services and other NGO's in establishing assistance 
programs for the Montagnards in the central highlands. We have 
discussed the problems with NGO's concerned, including Lutheran Family 
Services. These problems apparently stem from long-standing Vietnamese 
suspicions of the intentions of Americans wishing to work in the 
central highlands.
    The Charge, Deputy Chief of Mission and a political officer raised 
the Lutheran Family Services case on several occasions in 1996 and 1997 
with the Vietnamese agency responsible for oversight of most NGO's 
working in Vietnam.
    On each occasion, the leadership of that agency, the People's Aid 
Coordinating Committee (PACCOM), agreed to look into the situation, but 
to our knowledge the position of the Vietnamese government restricting 
Lutheran Family Services from working in the highlands has not changed. 
The Ambassador and Embassy, as well as visiting American officials, 
will continue to raise this issue with Vietnamese authorities in order 
to ensure that the agencies are able to continue their important work.
    We note that some NGOs are carrying out projects in the Central 
Highlands provinces of Kontum, Gia Lai and Lam Dong. There are projects 
on health, gender, income generation, environment, water and 
sanitation, institution building, education, community development, 
forestry, disabilities, vocational training and agriculture. Among the 
NGOs operating in Montagnard areas are Caritas Australia, Overseas 
Service Bureau (Australia), Handicap Internati6nal (Belgium), 
Netherlands Leprosy Relief Agency, Netherlands Vietnam Medical 
Committee, International Development Association (South Korea), The 
World Wildlife Fund (USA), Church of Nazarene International (USA), 
HealthEd (USA), Cooperative Services International (USA), U.S.-
Indochina Reconciliation Project (USA), Institute of International 
Education (USA), Population Council (USA), and Volunteers in Asia (USA)

    Question. The Vietnamese government requires that Montagnards and 
other refugees--participating in departure programs--obtain necessary 
exit permits first, before they are eligible to be interviewed for 
departure. Ms. Taft's written testimony states, ``many Montagnards have 
been unable to secure exit permission from the Vietnamese government--
and that this is a serious problem.'' What steps will the 
Administration take if exit permits continue to be withheld from 
Montagnards and other eligible refugees? Would this for example affect 
a future decision on granting Vietnam--Most Favored Nation status?

    Answer. As Assistant Secretary Roth said in his testimony, 
``nothing is more important in our relations with Vietnam than meeting 
our commitments.'' We have repeatedly raised the question of exit 
permits for Montagnards and other ODP applicants with Vietnamese 
officials. Since his arrival last May, Ambassador Peterson has stressed 
the importance of these issues in meetings with Foreign Minister Cam 
and other senior Vietnamese officials.
    We will continue to stress the importance of issuing exit permits 
in our contacts with the Vietnamese and press the Vietnamese 
government, both here and in Hanoi, to issue exit permits to all 
Vietnamese, including Montagnards, whom we have found eligible for 
emigration from Vietnam to the U.S.
    Vietnam's implementation of its commitments on emigration matters 
will be reviewed both when renewal of the waiver of the Jackson-Vanik 
amendment comes up in June and at the point in the future when we 
consider whether to grant MEN status to Vietnam.

                        Assistant Secretary Taft

    Question. Many Montagnards--as well as members of other persecuted 
groups, such as religious leaders and ethnic Chinese--have been barred 
from access to U.S. resettlement programs. This problem is especially 
bad for those who live in remote areas, or who have been exiled to such 
areas. There are also many people whom we have already interviewed and 
approved for admission to the U.S. but who have been denied exit 
permission by Vietnam. Now that illegal escape is no longer possible--
because neighboring countries return escapees to Vietnam without giving 
them a refugee interview--what has the U.S. government done to ensure 
free and unhindered emigration for such cases?

    Answer. The United States remains concerned that some 3,400 Orderly 
Departure Program applicants have been unable to attend their ODP 
interviews because Vietnamese authorities have not issued them an exit 
permit. Throughout the years of ODP's existence, access to ODP for 
eligible applicants has been a priority issue on the ODP agenda at 
almost every official meeting with the SRV to discuss ODP progressing.
    During my meetings with SRV officials in Hanoi and Ho Chi Minh City 
in January, I raised this issue and stressed the importance the U.S. 
places on access for these individuals. want to assure you that we will 
not put this issue to rest until to all eligible ODP cases are granted 
access to ODP interviews.
    You expressed concern that Vietnamese can no longer seek asylum in 
neighboring countries. Small numbers of Vietnamese continue to depart 
Vietnam clandestinely. Vietnamese asylum seekers arriving in countries 
in the region are treated in accordance with the national laws of the 
receiving country and international practice, including the principle 
of non-return of those found to have a well-founded fear persecution if 
returned to their country of origin. Asylum seekers found to have a 
well-founded fear are permitted to pursue resettlement in a third 
country. Those found not to have a well-founded fear are returned to 
Vietnam. This has been the practice in Southeast Asia and Hong Kong 
since February 14, 1994. At the February 1994, meeting of the CPA 
Steering Committee, CPA participants, including the United States, 
approved these procedures for handling newly arrived Vietnamese asylum 
seekers.

    Question. At the official announcement of the ROVR program in April 
1996, the State Department expected that processing of cases would 
start in September 1996 and would conclude a year later. What has 
caused the delay in the processing of ROVR cases? The Vietnamese 
government has recently given us permission to interview several 
thousand ROVR applicants. But some 4,000 cases submitted to the State 
Department more than a year ago including some of the most compelling 
political and religious cases--are still not cleared by Vietnam for 
interview. What's holding back these 4,000 cases?
    Answer. Though we had initially hoped to begin processing ROVR 
cases in September 1996, it was not until January 1997 that we were 
able to reach agreement with the SRV concerning the implementation of 
the ROVR program. Based on the terms of this agreement, the U.S. 
submitted lists of applicants and possible applicants to the Vietnamese 
government. The Vietnamese government originally agreed to issue exit 
permits to all those who expressed interest in pursuing a ROVR 
interview and who also met general exit permit criteria under 
Vietnamese law. Both sides agreed in January 1997 to seek a rate of 
about 1,500 persons interviewed per month beginning in April, 1997, and 
continuing to the end of the program. However, the Vietnamese 
government was not able to process applicants for exit permission 
quickly enough to reach this number, and interviews began very slowly. 
Last October, Vietnam announced that it was taking steps to accelerate 
procedures to clear ROVR applicants for interview. As of March 30, 
these new procedures have resulted in the clearance for interview of 
14,196 of the 18,400 currently eligible for consideration under the 
program.
    The first ROVR interviews began in Ho Chi Minh City at the ODP 
office site at the beginning of April 1997, but involved only 52 
people. After this initial group, the interview pace began slowly to 
pick up. As of March 30, 1998 specially trained INS adjudicators have 
interviewed some 5,603 ROVR applicants and approved for admission to 
the U.S. 4,651. INS officers are now interviewing approximately 1,900 
ROVR applicants each month. At this pace, we expect to complete ROVR 
interviews in late-September or early-October 1998.
    Concerning individuals that have not been cleared, as of March 30, 
2,853 individuals eligible for consideration under ROVR have not yet 
been cleared for interview. However, we expect that these individuals 
will be cleared for interview in the near future. SRV officials have 
informed us that another 1,330 individuals have not been cleared for 
interview; the majority, 606, because the SRV has been unable to locate 
the individuals due to address problems. We are confident that we will 
be able to provide the SRV with new contact addresses.
    Finally, 156 ROVR principal applicants have repeatedly refused to 
meet with Ministry of Interior officials to process their cases for 
interview clearance.

    Question. As you know, many Montagnards and other politically 
suspect Vietnamese have been denied ``household registration'' by 
theCommunist authorities. Can people without family registrationget 
access to U.S. refugee interviews?

    Answer. Household registries are not required for an ODP interview. 
However, household registries are normally required by local Vietnamese 
authorities when individuals apply for exit permits. With the exception 
of ROVR cases, the SRV requires that ODP applicants be issued exit 
permits prior to their ODP interviews.

    Question. Some applicants who have shown up for refugee interviews 
have been turned away by Vietnamese-government employed receptionists 
for lack of household registration, citizenship identity cards, or 
other documents--even though they have appointments or letter of 
invitation from the U.S. refugee program. What can applicants do in 
such circumstances? What will the U.S. embassy in Vietnam do to help?

    Answer. Steps have been taken to prevent the problems associated 
with SRV staff at the Orderly Departure Program processing site in Ho 
Chi Minh City (HCMC). The entire SRV work force was terminated by the 
HCMC Foreign Affairs Office (FAO) in December 1997. Since January 1, 
1998, all Vietnamese nationals working for ODP in HCMC--interpreters, 
clerical, and other support staff--have been contract employees of the 
USG through contracts issued by the Vietnamese government's contracting 
agency. Use of this contracting agency is required by the SRV. This is 
the same procedure that all foreign governments, companies, and other 
organizations operating in Vietnam must follow in order to hire 
Vietnamese nationals. Though the contracting agency is involved in 
legally executing the contracts and ensuring that all appropriate SRV 
taxes and fees are paid, the USG has complete control over the 
selection, training, supervision, direction, and termination or 
dismissal of these employees.
    Since the implementation of the new employment practices, we are 
not aware of any applicants experiencing difficulties in gaining access 
to the ODP processing site. Persons who may have had difficulties in 
the past should contact ODP, explain what happened and request that 
their appointments be rescheduled.

    Question. Vietnam has announced that ROVR applicants no longer need 
exit permits for accessing ROVR interviews. This announcement is 
welcome. Unfortunately, there is still a requirement that we receive 
someone's name on a list from the SRV before we can interview that 
person. This raises the unfortunate prospect that the same people who 
were denied exit visas under the old procedures will now be excluded 
from interviews by being kept off of the SRV interview lists. What does 
the United States plan to do to ensure that we get access to these 
compelling cases?

    Answer. We are pleased with the new clearance procedures the SRV 
initiated in early-October 1997. As of March 30, 1998 this change has 
resulted in the clearance for interview of 14,196 ROVR-eligible 
individuals; 77 percent of the eligible applicant pool. The SRV has 
also notified us that 1,330 people have not been cleared and provided 
us with specific information concerning the reasons for non-clearance 
of these individuals. An analysis of these lists indicates that the 
majority of the names have not been cleared because of address 
problems. We are confident that we will be able to provide the SRV with 
new contact addresses.
    Currently we are awaiting SRV clearance decisions on 2,853 ROVR 
applicants. We expect that clearance for these individuals will be 
received shortly.
    Once we have received the final clearance lists, we will compare 
our lists and the SRV lists and ask for an accounting for any cases 
that have not been accounted for by the SRV.
    We are committed to ensuring that all eligible ROVR cases have an 
opportunity to have their cases adjudicated, to complete interviews 
quickly, and expedite the departure of approved ROVR applicants. We 
believe that the SRV shares this commitment.

    Question. What assurances do we have that people whom we interview 
and who are deemed admissible to the U.S. under ROVR will be able to 
get post-adjudication exit permits?

    Answer. During my meetings in Hanoi in January, Vietnam agreed to 
program modifications to the departure clearance procedures for INS-
approved ROVR cases. We began implementing these new departure 
procedures in February. As of March 30, 1,126 ROVR applicants had 
departed Vietnam and another 460 were scheduled to depart shortly. With 
the new procedures now fully in place, we expect monthly departures of 
approved ROVR applicants to be between 1,500 and 2,000 starting in 
April. Given our experience over the past two months we believe that 
the SRV is fully cooperating in expediting the new departure procedures 
for ROVR cases. We will continue to monitor the process closely.

    Question. Let me give you an example of a Montagnard refugee who 
appears to be in deep trouble in Viet Nam. Lam A Lu was a member of 
FULRO, the Montagnard resistance movement. He was badly wounded in a 
Communist ambush, and managed to escape to Hong Kong. He had a very 
compelling refugee claim--he even showed the Hong Kong interviewers the 
seven bullet holes in his body--and his story was verified by his 
fellow Montagnards in North Carolina. Nevertheless, Lu was denied 
refugee status and sent back to Vietnam in 1996. He does not dare to 
return to his hometown to apply for ``household registration,'' because 
he fears retribution by the local authorities. He is eligible under 
ROVR but is not on the list of the Vietnamese government has given us 
permission to interview--and it is doubtful that he will ever be on any 
such list, because he has no household registration, and because the 
Vietnamese government will only give us the names of people who have 
been personally contacted by the Ministry of the Interior. What can we 
do for Lam A Lu and others like him? Why can't we just insist that the 
Vietnamese government give us access to all these people before we 
extend further economic concessions, such as a Jackson-Vanik waiver?

    Answer. I am pleased to inform you that Lam A Lu has been cleared 
for interview by SRV officials and will be scheduled for a ROVR 
interview soon.
    We believe that the new clearance procedures are working well and 
that eligible ROVR applicants will have an opportunity to have their 
cases adjudicated. We will continue to monitor this situation 
carefully, and will raise directly with SRV authorities the cases of 
any eligible ROVR applicants not cleared for an interview.

    Question. There have been credible reports that administrative 
roadblocks--not just the exit permit requirement, but other problems as 
well--and corruption still prevent many returnees from accessing the 
ROVR program. What is especially troubling is that several returnees 
are reported to have been placed under house arrest and prohibited from 
contacting foreigners. What can the U.S. government do on behalf of 
these people? What effort has the U.S. government undertaken to 
identify and locate such cases?

    Answer. Since November, when Vietnamese authorities changed 
procedures for clearing ROVR applicants for interview over 14,000 of 
the currently nearly 18,400 eligible ROVR applicants have been cleared 
for interview. Vietnamese authorities have informed us that another 
1,330 have not been cleared, the majority due to address problems. We 
are confident that we will be able to provide the SRV with new contact 
addresses. Another 2,851 individuals remain to be cleared for interview 
by the SRV.
    Concerning individuals reported to be under house arrest or 
experiencing other difficulties, anytime the USG becomes aware of 
reports of returnees experiencing such problems the information is 
passed to the United Nations High Commissioner for Refugees office in 
Vietnam with a request that UNHCR look into the situation. UNHCR is 
responsible for monitoring repatriates and providing assistance, as 
required.
    UNHCR currently employs seven expatriate monitors who are 
Vietnamese and Nung speakers. An important part of the monitor's work 
is visiting returnees in their homes throughout the country. The agenda 
and location for each monitoring mission is set by UNHCR. The dates and 
the province are announced to the Vietnamese authorities, while UNHCR 
independently chooses which returnees to visit. On many but not all 
monitoring visits, UNHCR staff may be accompanied by Vietnamese 
authorities. Since 1989, UNHCR monitors have met with approximately 25-
29 percent of the returnees. Returnees are visited in their homes or 
are received and interviewed on the premises of the two UNHCR offices 
in Hanoi and Ho Chi Minh City. UNHCR monitors pay special attention to 
those returnees who claimed or were reported to have faced arrest, 
detention or imprisonment after their return to Vietnam. According to 
UNHCR since 1989, of the nearly 110,000 Vietnamese who returned to 
Vietnam, a total of 275 individuals were arrested, detained, and/or 
imprisoned, all of them in connection with common crimes they committed 
prior to their escape from or after their return to Vietnam.

    Question. There have been reports of very unsatisfactory monitoring 
and protection provided by the office of the UN High Commissioner for 
Refugees (UNHCR) in Vietnam. For instance, a number of returnees 
currently placed under house surveillance and constantly harassed by 
the security police have reported that UNHCR had not been able to do 
much on their behalf. UNHCR monitors tend to characterize such 
treatment--and even the frequent denial of household registration to 
returnees who are suspect for political, religious, and/or ethnic 
reasons--not as persecution or mistreatment but as just an aspect of 
living in Vietnam. What kind of monitoring and protection, if any, does 
the U.S. embassy in Vietnam itself provide to returnees?

    Answer. Since the establishment of an official U.S. presence in 
Vietnam in 1994, Embassy officials have visited returnee areas to 
monitor the effectiveness of USG funded reintegration assistance 
programs and meet with returnees. In addition, since 1990 officers of 
the Bureau of Population, Refugees, and Migration have regularly 
traveled to Vietnam to monitor programs for returnees. Neither our own 
monitoring visits from Washington nor those of U.S. Embassy personnel 
stationed in Hanoi have detected any patterns of persecution by the 
Vietnamese authorities against those who have returned. UNHCR and non-
governmental organizations who work on a daily basis with returnees 
report similar results.
    If you know of any particular cases of concern we will follow up 
immediately.

    Question. A number of returnees have reportedly escaped again due 
to the persecution they faced upon repatriation. If they are eligible 
for ROVR, can they get an interview outside of Vietnam? If not, can the 
U.S. provide some kind of protection to these people if they have to 
return to Vietnam for the interview?

    Answer. Interviews for consideration for admission to the United 
States under the special adjudication standards established for the 
ROVR program are available only in Vietnam. Individuals who felt 
compelled to flee Vietnam a second time and who fear returning should 
contact the office of the United Nations High Commissioner for Refugees 
in the country they fled to and seek UNHCR's assistance. If UNHCR 
determines that the individual has a valid claim to refugee status, 
UNHCR may refer the case to the United States for resettlement 
consideration. The U.S. refugee program accepts referrals from the 
UNHCR and prepares and presents such cases to an officer of the U.S. 
Immigration and Naturalization Service for adjudication.

    Question. The U.S. State Department was a signatory to the 
Comprehensive Plan of Action (CPA). Is it true that with the conclusion 
of the Comprehensive Plan of Action in 1996, victims of persecution 
from Vietnam who escape to neighboring countries will be automatically 
deported? If so, how can such victims ever escape from persecution? 
Does the U.S. have any program to protect or resettle such victims of 
persecution--who may not meet ROVR and ODP criteria even though they do 
have a well-founded fear of persecution for political, religious, or 
ethnic reasons--directly from Vietnam? If so, how many of these ``non-
category'' refugees have been allowed to leave Vietnam for the United 
States within the last year?

    Answer. Since February 15, 1994 Vietnamese asylum seekers arriving 
in neighboring countries have been treated like any other asylum 
seekers in accordance with the national laws of the receiving country 
and internationally accepted practices.
    On February 14, 1994 the Steering Committee of the Comprehensive 
Plan of Action (CPA) adopted new procedures for newly arrived 
Vietnamese asylum seekers in the countries of first asylum in Southeast 
Asia and Hong Kong. The Steering Committee declared that screening 
procedures under the CPA should no longer be applicable to Vietnamese 
arriving in first asylum countries after February 14, 1994.
    In 1995, the U.S. refugee program established a Priority Two 
category for the consideration of the claims of Vietnamese who did not 
meet previous ODP criteria (e.g., a minimum of three years in a 
reeducation camp because of association with U.S. programs and policies 
in Vietnam or five years of employment with the USG) but who present 
credible claims of post-1975 persecution because of political, 
religious, or human rights activities. According to ODP statistics 
compiled in January 1998, 565 such cases have been presented to the ODP 
Director and INS for consideration. Of this number, eighty-three have 
been authorized for processing, 113 have been determined not to be 
eligible for consideration, and 369 are pending. Many of the cases 
presented for consideration were old cases which did not meet the 
interview eligibility criteria for existing ODP programs. We are not 
aware of any applications from individuals claiming to have recently 
experienced persecution because of their political, religious, or human 
rights activities.

    Question. Re-ed survivors and widows who missed the 1994 ODP 
deadline: In May 1997 the State Department agreed to consider late 
applications on a case-by-case basis and to consider on the merits 
those who missed the deadline for good cause. These people include, but 
are not limited to, Montagnards. How many post-deadline cases (both 
Montagnards and non-Montagnards) have been favorably considered, other 
than those of the list referred to in the cable.

    Answer. The agreement referred to in your question was under 
discussion in May 1997 but the instructions to the Orderly Departure 
Program Office (ODP) were issued jointly by the Department of State and 
INS Headquarters in July 1997. These instructions authorized 
exceptional consideration of ethnic Montagnard former reeducation camp 
detainee cases who contacted the ODP after the September 30, 1994 
deadline for direct registration and were otherwise qualified for 
consideration because they had the requisite three years in reeducation 
because of association with U.S. programs and policies in Vietnam. 
Approximately 110 cases of Montagnards were included in this special 
extension. This was the second time that ODP was authorized to accept 
applications for Montagnards received after the 1994 deadline. The 
first extension was authorized in January 1996.

    Question. Widows: In May 1997 the State Department also agreed to 
discontinue the requirement that widows of re-education camp victims 
provide documentary evidence--typically obtainable only from the 
Communist authorities--of their marriage and their husband's death. 
Instead, those who could prove their cases by other credible evidence 
would be considered. Unfortunately, I am informed that widows who 
missed the 1994 deadline because they did not have the documentation 
that was then required--but who later came forward with evidence other 
than documentation--have been turned away on the ground that this 
policy does not apply to them. If so, I hope this policy will be 
reconsidered. If not, do we know how many applications from such widows 
have been granted?

    Answer. A May 6, 1997 letter from the Department's Assistant 
Secretary for Legislative Affairs to Representative Christopher Smith, 
Chairman of the Subcommittee on International Operations and Human 
Rights of the House International Relations Committee, stated that ``we 
will review any cases which Members of Congress present to us which 
appear eligible under the re-education subprogram except for a lack of 
documentation. This agreement applied to widows who had applied for 
consideration under the reeducation subprogram of ODP prior to the 
September 1994 deadline but who had not been interviewed because of a 
lack of documentation. We are not aware of any widows in this category 
being denied access to the program. If you are aware of any such cases, 
we would be pleased to review them.

    Question. Government employees: What is the status of the review of 
the shocking high denial rate for former U.S. government employees who 
have been interviewed by ODP? Why have government employee interviews 
been discontinued pending the outcome of the review?

    Answer. The review of the denied former USG employee (i.e., persons 
who worked for the USG for a minimum of five years) cases is being 
conducted by the Immigration and Naturalization Service. We understand 
that INS has completed the review and is now in the process of writing 
up the results. The INS review focused on the application of the 
Lautenberg standard in the cases of former USG employees.
    In November 1996, we suspended the systematic processing of former 
USG employee cases after the Vietnamese Government informed us that 
they would no longer issue exit permits to these applicants During the 
previous two years we had not interviewed more than a handful of these 
cases and the INS approval rate for these cases had dropped below five 
percent. However, if qualified applicants in this program notify us 
that they have received an exit permit from the SRV we will present 
their case to INS for adjudication.

    Question. The ROVR program employs its own interpreters. This is a 
big improvement over the ODP program, which uses interpreters provided 
by Vietnam's Ministry of Interior. Many ODP applicants have reported 
fear of retribution if they tell U.S. officials about mistreatment and 
persecution in the presence of Ministry of Interior officials. Why has 
the U.S. not demanded that our own interpreters be also used for the 
ODP program?

    Answer. Steps have been taken to prevent the problems associated 
with SRV staff at the ODP site. The entire SRV Working Group work force 
was terminated in December 1997, and only those in whom the JVA and ODP 
Director had confidence were rehired. This new system was implemented 
in January 1998. The USG now has complete control over all personnel 
working in the ODP site in HCMC.

    Question. Vietnam now allows applicants without exit permits to be 
interviewed under ROVR. Why doesn't the State Department demand that 
Vietnam extend this same procedure to the entire ODP program? 
Considering that a large number of Montagnards and other compelling 
cases continue to be denied exit permit under ODP, why not require 
similar improvements in the ODP program as well?

    Answer. During my trip to Vietnam in January, I raised this issue 
with SRV officials, both in Hanoi and Ho Chi Minh City. The SRV has 
expressed the desire to successfully conclude all extraordinary U.S. 
admissions programs so that we can move toward establishment of a 
``normal'' migration relationship consistent with normalization of our 
overall bilateral relationship. We are hopeful that the SRV will soon 
agree to similar expedited interview clearance procedures for the 
Montagnards and other ODP programs.

                        Assistant Secretary Roth

    Question. There have been credible reports of monetary extortion by 
Vietnamese officials in exchange for exit permits. Many applicants 
under ROVR and ODP must pay hundreds to thousands of dollars in order 
to get required documents or get their application processed. This is a 
clear violation of the Jackson-Vanik amendment. How does the State 
Department intend to deal with this issue? What kind of intervention 
can it provide to victims of extortion?

    Answer. We have raised the problem of corruption with Vietnamese 
officials on numerous occasions, both generally in terms of its drag on 
economic development and specifically as a hardship for would-be 
emigrants who are forced to pay illegal charges for exit and other 
documents.
    The Vietnamese have assured us that extra-legal charges for exit 
permits do not result from Vietnamese government policies and that the 
government has issued directives to local officials ordering the 
cessation of such practices.
    Vietnamese authorities recognize that the problem of corruption by 
Vietnamese party and government officials is serious and they have 
campaigned strenuously to reduce corruption, so far with little 
apparent success.
    We will continue to press the Vietnamese government, both generally 
and on any specific cases we find, to ensure that exit permits are 
issued to those eligible for emigration from Vietnam to the U.S. 
without illegal charges.
    If you are aware of any specific cases, we would appreciate your 
passing them to us, so that we can follow up.

                        Assistant Secretary Taft

    Question. The ``LAVAS cases''--35 close relatives of U.S. citizens 
and/or lawful permanent residents who were forced back from Hong Kong 
to Vietnam even though they were beneficiaries of INS-approved 
immigrant visa petitions, and were immediately eligible for legal 
immigration to the United States--have also been the subject of 
considerable interest in Congress. Although most of these people have 
been back in Vietnam for about a year now, and although about half have 
been interviewed by ODP, only 2 have been granted visas. 12 have been 
denied, either for failure to prove the relationship or for failure to 
prove that the applicant will not be a public charge. Isn't this 
rejection rate unusually high?

    Answer. According to our records there are 36 individuals in the 
so-called ``LAVAS cases'' group. Of this number: (1) four have been 
approved for immigration to the United States; (2) eleven have been 
denied for documentation or public charge reasons; (3) one has been 
interviewed and the results are pending; (4) two did not appear for a 
scheduled interview; (5) six have not responded to instruction packets 
sent to applicants eligible to have their IV cases processed; and (6) 
we have been provided the names of twelve other individuals who are 
reported to have been part of the LAVAS case, but for whom we have no 
other information.
    The denials are due to problems in documenting the claimed 
relationships (221(g)) and in satisfying the public charge provision of 
the INA (212(a)(4)). Providing the evidence required by U.S. law is the 
responsibility of the applicants and their sponsors. We expect that 
most of the denials on these groups will eventually be overcome on 
presentation of additional evidence substantiating the claimed 
relationship or documenting that the sponsor in the U.S. has the 
required financial resources to support his or her spouse.

    Question. There are returnees who were eligible to apply for ROVR, 
but who did not do so due to various extenuating circumstances. For 
instance, some people who were being detained in the refugee camps for 
anti-repatriation activities were not offered access to ROVR. Also, 
some people in Sikieu did not apply because an official SRV delegation, 
which had been sent to persuade asylum seekers to return, instead told 
them ROVR was a trick and they should not sign up for it. I understand 
that people who could show good cause for not signing up for ROVR in 
the camps were to be allowed to sign up in-country, even though they 
did not return until after June 30. The only such applicants of whose 
cases I was aware are persons who claim that they were ``intimidated'' 
from signing up by anti-repatriation campmates. What mechanism do we 
have for accepting in-country ROVR applications, and what has the 
success rate been so far for applicants other than ``intimidatees''?

    Answer. There has always been a provision for initiating ROVR 
processing for individuals who meet eligibility criteria, but for some 
compelling reason were unable to register, such as because they were in 
detention.
    ROVR was created in order to identify and offer resettlement 
interviews in Vietnam to those screened-out Vietnamese boat people who 
may be of special interest to the U.S. due to their previous 
experiences or associations in Vietnam. Under ROVR, any Vietnamese who 
returned to Vietnam from the first asylum camps between October 1, 1995 
and June 30, 1996 (or who volunteered to return to Vietnam prior to 
June 30, 1996) could request consideration for a resettlement 
interview.
    The eligibility criteria to qualify for an interview under this 
initiative were crafted to be broad and generous for two reasons: to 
ensure that no one of special interest to the U.S. would be excluded 
and to encourage those remaining in first asylum camps to register and 
then return peacefully and voluntarily to Vietnam.
    The program was designed to offer resettlement interviews to those 
who:

        <bullet> had close association with the U.S. presence in 
        Vietnam or with the former government in South Vietnam prior to 
        1975;
        <bullet> were members of certain ethnic groups (Montagnards and 
        Nung);
        <bullet> persons detained for political or religious activity;
        <bullet> persons who were religious leaders in Vietnam;
        <bullet> and others determined to be of significant interest to 
        the U.S. based on their experiences in Vietnam prior to 
        fleeing.

    Individuals who believe that they meet these criteria and wish to 
be considered for an interview should contact the ODP office in 
Bangkok, Thailand. Their applications should include the following 
information: (1) date of return to Vietnam or if returned after June 
30, 1996 date of application for voluntary return; (2) information 
about their reasons for not registering in camp; and (3) information 
about the reason they should be considered of special interest to the 
U.S. (such as association with the U.S. presence in Vietnam before 
1975).

                  Assistant Secretaries Roth and Taft

    Question. What is the State Department's assessment of the human 
rights conditions in Vietnam? Have they improved over the past two 
years or have they worsened? How many religious leaders and how many 
political prisoners have been released from detention over that period? 
How many continue to be in prison?

    Answer. As noted in the Department of State Human Rights Report, 
while Vietnam's human rights record has been generally poor, there have 
been some positive developments. The government represses basic 
political and some religious freedoms. The government arbitrarily 
arrests citizens, including carrying out detentions for the peaceful 
expression of political and religious objections to government 
policies.
    Among the positive developments during the past two years is the 
trend toward reduced government interference in citizens' daily lives. 
The government has allowed citizens slightly greater freedom of 
expression and assembly to protest grievances. A small number of 
dissidents has been released from prison, including political prisoners 
Doan Thanh Liem (February 1996), Hoang Minh Chinh (June 1996), Ha Si 
Phu (December 1996), Le Hong Ha (August 1997) and Pham Duc Kham 
(September 1997).
    The Vietnamese government claims it does not hold any political or 
religious prisoners. It does not usually publicize the arrests of 
citizens for political reasons and frequently conducts closed trials, 
making it difficult to know exactly how many political and religious 
prisoners there are. Amnesty International lists 54 prisoners held for 
political reasons, but suggests that the total may be higher. Some 
overseas Vietnamese groups have claimed that there are as many as 1,000 
political and religious prisoners in the country; other sources put the 
figure closer to 200 persons.
    We routinely raise the cases of a number of jailed political and 
religious dissidents with the Vietnamese, both here and in Vietnam. 
Occasionally the Vietnamese government has released a prisoner on the 
condition that he or she leave the country; Liem and Kham, for 
instance, were welcomed to the United States on their release. We 
remain very concerned about several other prominent political and 
religious prisoners who reportedly suffer from health problems, and 
will continue to press for their release with the Vietnamese 
government.

            Response to Question Submitted by Senator Kerry

                        Assistant Secretary Roth

    Question. How committed is the new Vietnamese leadership to 
accelerated economic reform? What real progress has been made in recent 
months?
    Answer. The new leadership, headed by Party General Secretary Le 
Kha Phieu, Prime Minister Phan Van Khai and President Tran Duc Luong 
and operating by consensus as is Vietnamese custom, has publicly voiced 
its commitment to economic reform. Vietnam has recently taken positive 
measures, moving quickly to issue a number of decrees. The Asian 
financial crisis, which is beginning to negatively affect Vietnamese 
exports and foreign investment inflows, has helped focus the new 
leadership on the importance of a continuing commitment to economic 
reform. However, the reforms and the rhetoric surrounding their 
implementation suggest that the internal dispute over the extent and 
pace of reform continues.
    In general, recently announced changes are positive. However, they 
focus on making more effective the country's extensive system of 
administrative controls and procedures rather than their elimination, 
demonstrating that the Vietnamese government has yet to embrace a 
completely market-oriented reform program.
    The recently announced measures, many of which have not yet been 
implemented, include reforms to the trade and foreign investment 
regimes and the financial system. A number of the reforms represent 
important steps such as the gradual elimination of many export and 
import quotas; streamlining investment procedures; elimination of some 
import bans; expediting the processing of trade documents; and 
protection of established foreign investments from the negative effects 
of legal and regulatory changes. Many of the measures provide 
incentives, such as tax breaks and favorable access to credit, aimed at 
increasing exports from or foreign investment in targeted sectors Other 
measures taken, however, are inconsistent with a market-oriented reform 
process. These include: the imposition of foreign exchange controls; 
increasing import controls; the suspension of new banking licenses; and 
the monitoring of enterprises with foreign investment to ``ensure 
thriftiness.''
    Economic experts, including International Monetary Fund staff, have 
warned that the reforms thus far undertaken by the Vietnamese 
government do not go far enough. They warn that an economic crisis will 
result from structural problems in the Vietnamese economy and the spill 
over effects of the Asian financial crisis if Vietnam does not 
immediately undertake fundamental reforms including privatization of 
state enterprises, financial sector reform, adoption of a flexible 
exchange rate system and trade liberalization. It remains to be seen if 
the current leadership is willing or able to reach consensus on such a 
far-reaching program of structural economic reform.
    The U.S. Government is engaged in a dialogue with the Vietnamese 
government to impress upon it the importance of continued market-
oriented economic reform. This dialogue is supported by concrete 
action. The Agency for International Development has initiated a 
Commercial Law Development Program to help Vietnam draft laws and 
regulations consistent with an open economy. We are also negotiating a 
bilateral trade agreement, without which Vietnam cannot obtain Most 
Favored Nation (MEN) trade treatment, that will embody market 
principals and promote greater integration of Vietnam in the world 
economy.

            Response to Question Submitted by Senator Hagel

                        Assistant Secretary Roth

    Question. How have minority groups in Vietnam other than the 
Montagnards fared in seeking to emigrate to the U.S.?
    Answer. We are not aware of any minority other than the various 
ethnic groups referred to as Montagnards that have encountered 
difficulty as a group in emigrating to the U.S. from Vietnam.
    However, the Orderly Departure Program (ODP), which processes 
Vietnamese emigration, does not break out statistics on ODP applicants 
by ethnic group, with the exception of Montagnards.
    Vietnam's largest ethnic minority, the ethnic Chinese, who suffered 
from anti-Chinese policies pursued by the Government of Vietnam in the 
years immediately following the Vietnam War, has comprised a 
substantial portion of applicants who have successfully emigrated to 
the U.S. under ODP. Ethnic Chinese continue to apply successfully for 
emigration to the U.S. through the ODP program.
    Our objective remains to ensure that all ODP and ROVR applicants, 
who are not otherwise ineligible, are able to apply without hindrance. 
When we encounter any case where we have reason to believe that has not 
been true we have pursued the issue vigorously with the Vietnamese 
government, and we will continue to do so.

                               __________

               Prepared Statement of John F. Sommer, Jr.

    Mr. Chairman and Members of the Committee:
    On behalf of The American Legion, I appreciate the invitation to 
appear today to discuss the Montagnard's historical relationship with 
the United States during the Vietnam war, and my personal account while 
serving alongside the Montagnards. In addition, I have been asked to 
speak of the difficulties Montagnards and other Vietnamese refugees are 
experiencing in light of Vietnam's noncompliance with free emigration. 
We have taken this opportunity to address some closely related issues 
that are of significance.
    According to available information published by the Montagnard 
Foundation and other sources, over two thousand years ago the 
indigenous Montagnard people settled along the coast and in the fertile 
valleys of Vietnam. Over the next several hundred years, other peoples 
of varying cultures gradually migrated into their homelands. The 
Montagnards were forced deeper and deeper into the highlands where they 
remained, farming this mountainous area in their ancient manner for 
generations. Meanwhile, they were subjected to the whims of whatever 
regime happened to be controlling the country -and more specifically 
the highlands--at any given time through the years.
    Immediately prior to the First Indochina War, the French organized 
what could be construed as a Montagnard Army to assist in liberating 
the four provinces of the Montagnard in Central Vietnam from the 
occupying communist Viet Minh forces.
    According to information made available by the Fourth World 
Documentation Project of the Center for World Indigenous Studies, 
following four months of combat, the four provinces, Kon-Tum, Plei-Ku, 
Daklak, and Haut Donai, were liberated from the occupation of the Viet 
Minh. And because of the bloodshed, sacrifice, courage and loyalty of 
the Montagnards, the French created an autonomous country which was 
called ``Pays Montagnards du Sud Indochinois'' (P.M.S.I.), which 
translates to the ``Country of the Montagnards of South Indochina.'' 
During the war itself, the Montagnard troops were reportedly used by 
the French basically as a deployment for strategic defense against the 
Viet Minh. Following the Geneva Convention in July 1954 the Indochina 
War ended, and for all intents and purposes, P.M.S.I. ceased to exist 
in the legal sense of the term.
    History reflects that the United States military's involvement with 
the Montagnard people commenced in the Fall of 1961 when, with the 
permission of the South Vietnamese government, US representatives 
approached the tribal leaders of a Rhade camp at Buon Enao in Darlac 
province. The Americans initially involved were a representative of the 
US Embassy and an Army Special Forces medical sergeant. The proposition 
offered--and after a period of discussion and deliberation accepted--
was to provide weapons and training in turn for the Montagnards' 
declaration for the South Vietnamese government and participation in a 
village self-defense program. Normally such a program would have been 
carried out under the command and control of the South Vietnamese Army 
and its US military advisors. However, it was determined that this 
project would, at least in the beginning, be carried out separately, in 
the absence of a guarantee that the Rhade experiment would be 
successful, especially in view of the Vietnamese government's failure 
to follow through on other promises to the Montagnards.
    Reportedly, by mid-December the pilot project was successfully 
completed, and the program was extended to forty other Rhade villages 
within a radius often to fifteen kilometers of Buon Enao. Additional 
soldiers from the US 1st Special Forces Group and the Vietnamese 
Special Forces were deployed to assist in the expansion, and by the 
Spring of 1962, the Civilian Irregular Defense Group (CDG) program was 
rapidly growing. Increasing responsibility for training was assumed by 
the South Vietnamese Special Forces, and trained Rhade cadre began 
training local strike forces and village defenders, with US Special 
Forces troops serving as advisors to the ``trained trainers.''
    By the latter part of 1964, the successful program had spread 
beyond the Rhade, to include other Montagnard tribal groups, other 
minority groups such as Cambodians and Nung tribesmen, and additional 
US Special Forces detachments including some of the 5th Special. 
Forces. Correspondingly, the responsibilities of the CIDG increased, to 
include missions such as the border surveillance program. In 1969 the 
transfer of CIDG forces to the Vietnamese military commenced, many of 
the CIDG units were converted to Vietnamese Ranger units, and others 
were renamed as Border Ranger units. The transfer was, as we understand 
it, completed sometime in 1971.
    This is not to say there weren't a number of difficulties that 
arose during the development of the CIDG. However, by most accounts it 
was a significantly successful program.
    Today stories abound from former Special Forces soldiers, Special 
Operations troops, and assorted veterans who served with Montagnards, 
the Nung, Cambodians and others, regarding the loyalty, dedication, 
heroism and friendship exhibited by these indigenous fighters.
    It is sad to say that many--if not most--of the Montagnard held out 
some degree of hope following the total US withdrawal from South 
Vietnam in 1975 that their American allies would return to the 
highlands to rejoin them. That was not to be. However, today veterans 
among organizations such as The American Legion, the Special Forces 
Association and others are actively involved in trying to provide 
humanitarian assistance to those courageous individuals with whom they 
served.
    My personal experience with the Montagnards was limited to 1968, 
while serving as a combat medic with an infantry company in the First 
Brigade of the 4th Infantry Division, located in the Central Highlands.
    On a few occasions our unit worked in conjunction with the CIDG and 
their American advisors, basically securing hilltops or fire support 
bases, and in one instance a Special Forces camp. There was a general 
communication problem, but it did not ever prohibit us from trading 
rations with them. They liked our C rations, and their LRRP-type rice-
based rations were a welcome change of menu for us.
    My role as a medic, and during the latter part of my tour as 
Noncommissioned Officer in Charge of a Battalion Aid Station, offered 
the opportunity to provide medical treatment to Montagnards in a number 
of different situations including MEDCAP operations to their villages, 
on an emergency basis at the Aid Station, and others.
    While serving as NCOIC of the Aid Station near Pleiku, I also 
frequently participated in night ambushes around Montagnard villages. 
The purpose of these operations was to protect the villages from the 
North Vietnamese Army units and Viet Cong who were operating in that 
area. A location would be established near the village at dusk, and 
then be moved to a more strategic defensive position after dark. Our 
patrol would always go through the village on the way in so that the 
Montagnards would know we would be there during the night.
    All of my personal experiences with the Montagnards--whether CIDG 
or civilian villagers--were positive, and I developed an affinity and 
respect for the people. Unfortunately, during my trips to Vietnam since 
1991, the opportunity to return to the Central Highlands has not 
presented itself, understanding that it has only been within the recent 
past that westerners have been permitted to travel in that border area. 
In addition to embracing The American Legion's strong position that we 
have a moral obligation to assist those who fought side by side with us 
during the war, I have a personal interest in the well being of our 
former allies and their families.
    The plight of the Montagnards today remains most unfortunate. 
Millions of dollars and thousands of man-hours of humanitarian 
assistance are expended in Vietnam by American NGOs each year. However, 
few--if any--of these organizations are permitted by the Vietnamese 
government to develop and administer programs that would provide 
humanitarian aid to the Montagnards in the Central Highlands, despite 
the horrendous conditions of poverty and hopelessness that exist among 
the tribal people.
    An example is the Vietnam Highlands Assistance Project which was 
developed by Lutheran Family Services in 1989. During the nine years 
since it was established, the project has only been allowed access to 
the Central Highlands on one occasion, though not for a lack of trying. 
Project officials have continuously pushed Vietnam's Peoples Aid 
Coordination Committee (PACCOM) for NGO humanitarian access to the 
Central Highlands.
    Of course, the failure of the Vietnamese government to allow the 
provision of humanitarian assistance in the highlands is not the only 
problem facing the Montagnards. We have seen and heard numerous 
reports--some anecdotal and others official--of the strife that has 
beset Montagnards who have attempted to emigrate from Vietnam. It is 
often reported that many have been forced to pay province officials 
exorbitant fees for exit permits, and then in some cases bribes to 
other Socialist Republic of Vietnam (SRV) officials, in their mostly 
futile attempts to negotiate the emigration process.
    This situation regarding the Montagnard is concisely described in a 
recent report prepared by the Chief Counsel of the House International 
Relations Committee's Subcommittee on International Operations and 
Human Rights following his December 1997 trip to Vietnam. The report 
states in part:

          The Montagnard population--many of whose members have 
        particularly strong ties to the United States and particularly 
        compelling refugee claims--continues to face problems that are 
        even worse than those of most other Vietnamese of humanitarian 
        interest to the United States. Because of their remote location 
        and their alienation from the mainstream of Vietnamese society 
        they are particularly vulnerable to all of the abuses listed 
        above. They have even less access to information than other 
        residents of Viet Nam, and are even more helpless in the face 
        of official corruption. For instance, some Montagnard refugees 
        resettled in the United States have been forced by corrupt 
        local officials to leave family members behind and substitute 
        non-family members who then disappear upon their arrival in the 
        United States.

    One of the obstacles that has prevented Montagnards from leaving 
Vietnam, and has also blocked the emigration attempts of ethnic 
Vietnamese, has included the use of translators provided by the SRV by 
our own Orderly Departure Program (ODP), and Immigration and 
Naturalization Service (INS). These SRV interpreters have been 
responsible for such sensitive issues as commenting on the authenticity 
of documents or testimony provided by refugee applicants during the 
interview process. It is commonly known that numerous applicants whose 
emigration cases were denied have complained, some in writing, to ODP 
officials that they were intimidated by SRV officials being present 
during their interviews, and that the presence of these individuals 
encumbered their ability to openly disclose the extent of their 
involvement with the US, relevant information surrounding their 
persecution by the SRV, and related matters. Beyond that, reports from 
applicants whose cases were both approved and denied have charged that 
some SRV provided employees have solicited bribes for favorable 
results, and offered threats or otherwise intimidated applicants who 
were not willing to pay.
    In reference to the involvement of SRV staff, the aforementioned 
report by the Chief Counsel of the House Subcommittee on International 
Operations and Human Rights states in part:

          I was already familiar with what this can do the integrity of 
        regee programs. The presence of SRV officials at the vast 
        majority of UNHCR interviews with CPA returnees has been an 
        important factor in the derision with which the UNHCR's ``zero-
        persecution-on-return'' assurances have been greeted by 
        Vietnamese-Americans, U.S. veterans' groups, Ben Gilman, Chris 
        Smith, et al. Also, many applicants have written letters to ODP 
        stating that they were afraid to tell their stories in the 
        presence of government-supplied interpreters, and setting forth 
        the ``real'' story in an almost-always-unsuccessful effort to 
        get a denial reconsidered.

    It has been reported that effective January 1, 1998 a private 
employment agency is being used to hire the interpreters and others who 
have been furnished by SRV. However, it appears that the cases of 
applicants who were adversely impacted based on the previous policy 
will not be re-reviewed, which would be most unfortunate.
    The Resettlement Opportunities for Vietnamese Returnees (ROVR) 
program was not viewed favorably by The American Legion from the 
outset, and SRVs failure to hold up its end of the bargain since 
implementation has been even more disconcerting. The purpose of ROVR 
was to create conditions under which ``Boat People'' would voluntarily 
return to Vietnam from the refugee camps in countries of first asylum. 
Those who met the US-defined criteria of ``refugee'' and returned to 
Vietnam, would be interviewed and, if found eligible, be granted 
passage to the United States. In turn, SRV agreed to not take reprisals 
against them for having fled the country, and to issue exit permits 
necessary for them to become involved with US emigration officials in 
preparation of leaving Vietnam.
    SRVs cooperation in furnishing the US with names of those who are 
to be interviewed has been sporadic. As of mid-December, 6,000 had been 
provided, which was about one-third of those that had been requested. 
Exit permits have not been provided to many of those who were supposed 
to receive them based on their meeting US criteria. We understand that 
as of recently the exit permits are no longer required prior to seeking 
interviews from ODP, but they continue to be required at a later time 
during the process. With respect to the SRV pledge of no reprisals, the 
previously mentioned House Subcommittee report contains the following:

          The shocking extent of SRV involvement in the administration 
        of all our programs--as well as in the UNHCR monitoring 
        program--makes highly suspect any assessment that returnees are 
        not facing political problems on their return. The SRV internal 
        security apparatus is pervasive. Maintenance of control over 
        the lives of ordinary citizens appears to be among the 
        government's highest priorities. Of the dozen or so returnees 
        we visited--some ``officially'' in the presence of SRV 
        personnel, others ``unofficially'' after satisfying ourselves 
        that we had managed to evade surveillance--all but three had 
        been denied household registration, which is the essential 
        prerequisite to a decent life in Viet NAM. Several had been 
        frequently visited by security officials demanding to know 
        about their past political and/or religious activities and 
        warning them of severe reprisals for any further such 
        activities. All those whom the SRV government knew we intended 
        to visit had been interrogated in anticipation of our visit. 
        Several had been given detailed instructions about what to say 
        and what not to say. A few returnees are known to have been 
        imprisoned since their return--most for ostensibly nonpolitical 
        crimes such as illegal escape, others on overtly political 
        charges.

    It is important to note that ROVR is not the only measure of 
Vietnam's cooperation on the emigration issue. The Orderly Departure 
Program is equally as important. We understand that the ODP, 
implemented nearly twenty years ago, potentially has thousands of cases 
that are unresolved for one reason or another. These include cases of 
re-education camp survivors and their widows, former US government 
employees, Amerasians, and others. All of them are individuals who did 
not leave the country at the urging of the US, based on promises that 
if they met the criteria, the US would process them out. It has 
recently been reported that there is an artificially high ``no-show'' 
rate in the ODP, generated by the fact that many people who are 
eligible for interviews cannot get exit permits. Also, many who tried 
prior to the first of the year were either turned away by SRV staff, or 
the applicants refused to comply with their demands for bribes.
    In December 1997, the Clinton Administration announced that the 
President was seriously considering waiving the requirements of the 
Jackson-Vanik Amendment (19 U.S.C. 2432(a)). Briefly, Jackson-Vanik 
renders communist governments ineligible for economic concessions 
through the Export-Import Bank and the Overseas Private Investment 
Corporation until their citizens are guaranteed unfettered freedom of 
emigration.
    It is obvious to The American Legion, among others, that 
Montagnards and other Vietnamese citizens are not by any stretch of the 
imagination free to leave Vietnam if they so wish. The examples set 
forth in this statement are only a snapshot of the abysmal SRV-
controlled situations that exist within ROVR and ODP--programs that 
were established to assist refugees in emigrating--not forcefully 
prevent them from leaving a country where they are subject to 
harassment and persecution. The United States has a moral obligation to 
help these individuals in any way we can possibly do so. For the 
President to waive Jackson-Vanik would be the same as closing the door 
forever on the possibility that many of these deserving individuals 
could ever be resettled outside of Vietnam.
    In addition to the provisions of Jackson-Vanik, 19 U.S.C. 2433 
provides authority for the President to withhold nondiscriminatory 
trade treatment to countries based on cooperation with our efforts to 
account for American military and civilian POWs and MIAs in Southeast 
Asia. It is contingent upon cooperation to achieve a complete 
accounting of the POWs and MIAs, to repatriate such personnel who are 
alive, and to return the remains of such personnel who are dead to the 
United States.
    On a related issue, last week President Clinton certified that 
Vietnam is ``fully cooperating in good faith'' with US efforts to 
account for missing American soldiers from the Vietnam war, as required 
under section 609 of Public Law 105-119. The American Legion does not 
agree with the President's determination. To begin with, the 
certification would have been more credible if the President had waited 
to review the forthcoming National Intelligence Estimate on the Vietnam 
POW/MIA Issue that is expected to be completed later this Spring.
    The government of the Socialist Republic of Vietnam is not 
cooperating anywhere near the extent to which it can. A degree of 
cooperation is being offered in the conduct of the joint field 
activities, where our Joint Task Force--Full Accounting and Vietnam's 
Office on Seeking Missing Personnel are excavating crash sites and 
other incident locations. Of course, the United States is paying 
Vietnam handsomely for that assistance.
    It is the unilateral cooperation by the central government that is 
not forthcoming. In August 1993, a high ranking State Department 
official specifically asked the Vietnamese government to turn over 
remains and information relating to over eighty cases involving over 
ninety individuals categorized as Last Known Alive, and Special Remains 
Cases. To the best of our knowledge, very little, if any information 
correlating to those cases has been turned over by the SRV government.
    National Commander Anthony G. Jordan and this witness met with 
several high ranking Vietnamese government officials in December 1997, 
and requested, among other things, increased unilateral cooperation in 
helping to resolve those cases where the incidents took place in the 
areas of Laos and Cambodia that were controlled by the Peoples Army of 
Vietnam during the war. The American Legion and others, including 
representatives of the families, have formally requested this as well 
as unilateral cooperation on other similar issues for several years. We 
continue to receive empty promises, but no substantial progress has 
been forthcoming.
    The third concern of The American Legion is Vietnam's abysmal 
record on human rights. It is necessary to remain mindful that the 
government of SRV continues to be a communist regime that actively 
suppresses the human rights of many of its citizens. Unfortunately, 
despite the lifting of the trade embargo and the normalization of 
diplomatic relations, there has been no appreciable improvement. The 
only apparent change is the diminished level of pressure that the US 
government is placing on Vietnam to enhance its human rights practices. 
The SRV government continues to arrest and imprison political and 
religious activists and hold them at will. Hanoi does not suffer those 
who believe in freedom and democracy to espouse their feelings.
    In reviewing the State Department's Human Rights Report on Vietnam 
for 1997, it is interesting to note the comments that relate to one of 
the issues under consideration at this Hearing. Under the section of 
the report relating to the subjects of Emigration and Repatriation is 
the following:

          Citizens must demonstrate eligibility to emigrate to another 
        country and show sponsorship abroad, before the Government 
        issues exit permits. Citizens' access to exit permits was 
        frequently constrained by factors outside the law. Refugee and 
        immigrant visa applications to the Orderly Departure Program 
        (ODP) sometimes encounter local officials who arbitrarily delay 
        or deny exit permits based on personal animosities or on the 
        official's perception an applicant does not meet program 
        criteria, or in order to extort a bribe.

          There are some concerns that members of minority ethnic 
        groups, particularly nonethnic Vietnamese such as the 
        Montagnards, may not have ready access to these programs. The 
        Government denied exit permits for certain Montagnard 
        applicants for emigration.

    The American Legion has urged President Clinton in the strongest 
possible terms to refrain from even proposing a Jackson-Vanik waiver 
until such time that considerable cooperation and improvement are 
advanced by the government of Vietnam in the three important areas that 
are discussed in this statement.

    Mr. Chairman, we sincerely thank you for scheduling today's hearing 
on these issues which rarely receive the attention that they justly 
deserve.

                               __________

              Prepared Statement of Dr. Nguyen Dinh Thang

    In July 1995, to justify normalized relations with Communist 
Vietnam, Administration officials explained to the public and Congress 
that expanded relations would bring along political liberalization, 
democratic values, and improved human rights. Two and a half years 
later, reality has proven the contrary.

    Since normalization, the Communist government has further 
restricted freedoms and has increased its violations of human rights: 
more religious leaders and dissidents have been arrested or placed 
under administrative detention, more citizens than ever have been 
detained and charged simply for criticizing corrupt government 
practices, there is much less freedom of the press now than before 
normalization. The future looks even bleaker after hardline Communists 
took over the leadership of the Party three months ago. Last month, the 
government sent 3,000 agents, disguised as priests and followers, to 
infiltrate all levels of the Buddhist Church so as to monitor and 
control all of the Church's activities. Also last month, the communist 
Party ordered its members to infiltrate foreign-owned companies via 
formation of party cells among workers. Comparison of the State 
Department's most recent human rights country report with the one two 
years ago attests to the failure of the U.S. policy in promoting human 
rights in Vietnam.

    This Administration's policy in recent years has also made it 
virtually impossible for victims of persecution in Vietnam to escape 
from their persecutors.

    In a multilateral agreement with countries in the region, the U.S. 
supports a new refugee policy, effective July 1996, that automatically 
returns escapees to the Vietnamese government. Those already in first-
asylum camps were repatriated en masse in 1996. With the help of this 
misguided policy, Vietnam has become one of the very few countries in 
the world where victims of persecution have no way out, except through 
official channels that are under the complete control of the Communist 
government. The State Department Inspector General in his Report of 
Inspection released two months ago recognizes this most disturbing 
reality: the U.S. Government does not have control over key aspects of 
the resettlement process; Vietnam does.

    Making its case for the waiver, the U.S. Administration has 
completely ignored this Kafkaeque situation that it has helped to 
create: victims of persecution must get approval from their persecutors 
in order to escape from persecution. In one case that I have worked on 
since 1996, the victim, now in hiding in Cambodia, has been told by the 
U.S. embassy in Phnom Penh to return to Vietnam and apply for exit 
through the official channel--at his own risk. This illustrates how 
U.S. policy towards Vietnam of late favors the oppressor over the 
oppressed.

    The State Department has quoted statistics to justify the 
recommended waiver: 14,000 names have been cleared by Vietnam for 
interview under the Resettlement Opportunity for Vietnamese Returnees 
(ROVR) program and 470,000 individuals already resettled under the 
Orderly Departure Program (ODP). But these statistics are misleading: 
the State Department has failed to mention those, particularly victims 
of persecution with the most compelling and deserving claims, who have 
been denied access to these programs.

    The State Department had initially expected to conclude ROVR 
interviews by September of last year. Vietnam however twice reneged on 
its promised cooperation and caused the 18-month delay in the 
implementation of the program. As of today, six months after the ROVR 
program was initially expected to wrap up, 4,000 names are still not 
cleared for interview. Among them there are religious leaders currently 
placed under police surveillance, human rights activists condemned to 
house arrest for their past activities in first-asylum camps, and 
individuals imprisoned on political and religious charges. Three months 
ago, I joined a Congressional staffer in a fact-finding mission to 
Vietnam. We met some of these returnees or their relatives. Some of 
them had been told, bluntly, that the government had decided that they 
should not leave. There were also several returnees, who were in hiding 
to avoid retribution by the authorities. They of course did not have 
access to the program, despite their eligibility. According to my 
latest information, their situations have not changed.

    It is important to note that clearance for interview does not mean 
approval for exit. Often family registration and citizenship identity 
card are required for exit permission. Two thirds of the returnees we 
met during our trip were without these documents, which made them 
personna non grata in their own country. They were not be able to get 
legal employment, apply for a business license, seek admission to 
hospital, or send their children to school. Last week, a returnee, a 
Chinese ethnic who had worked as an interpreter for the U.S. 
government, informed me that the Ministry of Interior had told him he 
would have no chance of ever leaving Vietnam for lack of these required 
documents.

    It would be a major omission not to mention the rampant and 
systematic corruption at all levels of government in Vietnam. Most 
applicants must pay Vietnamese officials large amounts of money in 
order to gain access to U.S. programs or to get exit permission. I have 
carefully documented cases of Vietnamese, now in the U.S., who had to 
pay several thousand U.S. dollars in exchange for exit permission. ROVR 
applicants living in My Tho, Can Tho and Bien Hoa provinces are 
routinely required to pay five million dongs, equivalent to $400, in 
order to have their applications vetted by the local authorities. This 
is just initial payment; they have to pay more at every step in the 
process. Considering Vietnam's annual average income of only $300, few 
victims of persecution can afford such exhorbitantly large bribes. Such 
monetary extortion also violates the Jackson-Vanik Amendment.

    Victims of persecution hoping to get out of Vietnam under ODP fare 
even worse. The State Department has failed to acknowledge that many of 
the most compelling cases, often of highest political and humanitarian 
interest to the U.S., are not among its figure of 470,000 individuals 
successfully resettled under ODP. Many Montagnards, members of ethnic 
minorities, former U.S. government employees, veterans of U.S. special 
forces, former political prisoners exiled to remote areas, religious 
leaders, spouses and children of American citizens, etc. have been 
excluded from the program. Over the years I have personally worked, 
often without success, on many such cases. For some unknown reasons, 
the State Department has restricted the free emigration condition under 
Jackson-Vanik to just ROVR, leaving in limbo victims of persecution 
eligible under ODP. Such restrictive interpretation was clearly not the 
intent of Congress when it passed the Jackson-Vanik Amendment.

    Waiving Jackson-Vanik at this time will be a major mistake. Such a 
waiver, premature and unjustifiable as Vietnam continues to deny exit 
permission to a large number of victims of persecution, will give away 
the last leverage that could be used to force Vietnam into fully 
cooperating with U.S. resettlement programs, and will deny victims of 
persecution their last hope of ever leaving Vietnam.

    In order to avoid such a catastrophic consequence, I would like to 
make the following recommendations.

          1. The U.S. should demand that Vietnam satisfactorily resolve 
        all cases--ROVR and ODP--of interest to the U.S., particularly 
        cases raised by members of Congress, as a condition for the 
        waiver. Vietnam can easily prove its true cooperation and its 
        deserving the waiver by resolving all these cases tomorrow. I 
        have submitted several lists of such cases to the Senate 
        Foreign Relations Committee and to the State Department. I am 
        working with other non-governmental organizations to compile 
        additional lists for submission.

          2. Even after Vietnam has satisfactorily resolved all 
        existing cases of special interest to the U.S., the waiver 
        should only be announced with a clear message that it will be 
        rescinded at the first sign of Vietnam's failure to cooperate 
        in the future. For as long as the Vietnamese government 
        violates the basic human rights of its citizens, and for as 
        long as escape from persecution must be pre-approved by the 
        persecutors, such a guarrantee is absolutely necessary.

          3. As an additional safety measure, I recommend that the 
        Senate Foreign Relations Committee request an independent 
        investigation by the General Accounting Office into each and 
        every case in the said lists of victims of persecution and into 
        the corrupt practices of Vietnamese officials. Such an in depth 
        case-by-case investigation will add pressure on Vietnam to 
        truly cooperate. In case Vietnam does not cooperate, this 
        investigation may suggest ways to cope with the underlying 
        problems.

    These specific cases should be the litmus test of Vietnam's stated 
cooperation and of the success of the ROVR and ODP programs, not the 
statistics quoted out of context by the State Department. There is no 
reason for the U.S. government to give away our last leverage in such a 
hurry and to ignore the plight of victims of persecution in Vietnam, 
which recent U.S. policy has only made worse.

                                 ______
                                 

 Petition Letter Requesting the Administration to Withhold Waiving the 
            Jackson-Vanik Amendment Requirements for Vietnam

                                                    March 10, 1998.
The Honorable Jesse Helms,
Chairman, Senate Foreign Relations Committee,
United States Senate,
450 Senate Dirksen Office Building,
Washington, D.C. 20510.


    Dear Senator Helms:

    On behalf of 23 Vietnamese-American communities throughout the 
United States and the Vietnamese Inter-faith Council in the USA, we 
write to seek your intervention with the Clinton Administration from 
granting the Socialist Republic of Vietnam a waiver of the Jackson-
Vanik requirement. We are disturbed by news that the Administration 
intends to waive the Amendment's requirements, despite the fact that 
Vietnam continues to suppress the rights of its citizens, including the 
right to free emigration.

    Vietnam's recent change in the procedure under the Resettlement 
Opportunity for Vietnamese Returnees, or ROVR, only delays the 
requirements for exit permits wherein applicants approved for 
resettlement still need exit permits to emigrate abroad. There is 
mounting evidence that local authorities have harassed and extort 
applicants in their requests for exit permits. Widespread corruption by 
communist officials presents a major obstacle to free emigration. 
Vietnamese officials have demanded thousands of dollars from applicants 
in exchange for exit permits out of the country. Most returnees cannot 
afford such bribes.

    Also, we call your attention to the deterioration in human rights 
conditions in Vietnam since the U.S. established diplomatic relations 
with that country in 1995. An untold number of political dissidents and 
religious leaders have been imprisoned by the Hanoi regime. In April of 
1997, the communist authorities implemented an Administrative Detention 
Directive, 31/CP, which allows for detention of individuals for up to 
two years without a hearing or trial.

    There is no accurate number of people being detained under the 
auspices of the Directive since the authorities make every effort to 
keep this potentially damaging information a secret. However, it is 
known that every province in Vietnam has at least one administrative 
detention center where people are held for up to two years, without 
trial, for committing a wide range of activities from promoting human 
rights to vagrancy. According to a 1997 Human Rights Watch report on 
Vietnam, a detention center in the southern province of An Giang holds 
``an average of 200 individuals at any one time.''

    While Hanoi endorses the free flow of investment dollars into 
Vietnam from foreign investors, it regularly cracks down on the free 
flow of information and freedom of expression from its own citizens. 
Late last year, the Hanoi regime established new procedures to tighten 
its grips on the press, foreign and domestic. In November of 1997, the 
editor of a Vietnamese language trade journal was arrested for exposing 
high-level corruption. The arrest has had a chilling effect on an 
already near freezing climate on Vietnam's ability to provide fair and 
accurate news to its citizens.

    The increasing pace of diplomatic activity between the U.S. and 
Vietnam, especially in the area of trade, provides a viable opportunity 
for our country to take a firm stand for freedom and democracy in a 
land that we have sacrificed 58,000 of our best and brightest for those 
same ideals. Our country should not grant Most Favored Nation 
privileges to communist Vietnam unless and until Hanoi respects the 
rights of its own citizens to speak, worship, and assemble freely. We 
should make Hanoi account for its own conduct if it wants the full 
privilege of free trade with our country.

    If we are to trade with Vietnam, we should trade with a conscience, 
never forgetting that principles of freedom have led this nation to 
economic greatness. Respect for the basic tenets of freedom is 
consistent with and can even promote a healthy economic climate in a 
free market economy. We should stand on the side of the Vietnamese 
people, not with their oppressor. Our long-term investment in Vietnam 
should be in its citizens, not with its oppressive government.

    Vietnam has not made sufficient progress on free emigration or 
improvements in its human rights conduct to justify a waiver of 
Jackson-Vanik. We call on you to intervene with the Administration by 
requesting the President to not waive the requirements of Jackson-Vanik 
at this time.

    Thank you for your concern and assistance in this important issue.

        Sincerely yours,


Venerable Thich Minh Dung, Executive Director, Vietnamese Inter-faith 
        Council in the USA

Huynh Quoc Binh, President, Vietnamese Community of Oregon

Tran Van Luan, President, Vietnamese Community of Seattle, Washington

Do Trong Duc, President, Vietnamese Community of Southern California

Lai Duc Hung, Secretary General, Alliance of Vietnamese Associations in 
        Northern California

Dr. Tran Luong Ngoc Ho, President, Vietnamese Amercian Community of 
        Illinois

Nguyen Cao Quyen, Chairman, Vietnamese Community of Washington, D.C., 
        Virginia, and Maryland

Le Anh Tuan, President, Vietnamese Community of Boston, Massachusetts

Dominic Thac Pham, President, Vietnamese Community of Georgia

Dr. Bui Quang Tien, President, Federation of Vietnamese-American 
        Associations of San Diego

Tran Van Dang, Chairman, Vietnamese Community of New York

Nguyen Cao My, President, Vietnamese Community of Houston & Vicinity

Tu Van Be, Chairman, Vietnamese Community of Oklahoma

Nguyen Thua Long, President, Vietnamese Community of Louisiana

Tran Anh Tuan, President, Vietnamese Association of Charlotte, North 
        Carolina

Hinh Van Nam, President, Vietnamese Community of Clark County, 
        Washington

Pham Van Yen, President, Vietnamese Community of Minnesota

Tran Giao, President, Vietnamese Community of Northwest New Jersey

Nguyen Ngoc Thu, President, Vietnamese Community of Northwest 
        Pennsylvania

Nguyen Loi, President, Vietnamese Community of Syracuse, New York

Nguyen Van An, President, Vietnamese Community of Endicott, New York

Nguyen Vinh, President, Vietnamese Community of Utica, New York

Nguyen Van Tuong, President, Vietnamese Community of Dallas, Texas

Dr. Nguyen Van Chat, President, Vietnamese Community of Fort Worth, 
        Texas

                               __________

              Additional Material Submitted for the Record

         Letter Submitted by Senator Bob Smith of New Hampshire

                                                    March 10, 1998.

The Honorable Jesse Helms,
Chairman, Committee on Foreign Relations,
United States Senate,
Washington, D.C. 20510.

    Dear Jesse:

    I want to add my own special welcome to John Sommer, Executive 
Director of The American Legion, who is testifying before you this 
morning on Vietnam issues.

    Although John is not a constituent of mine, he is, nonetheless, 
someone I have worked closely with for several years. I have always 
been impressed with his principles, his dedication to the people of 
Vietnam, and his outspoken concerns for American POWs amd MIAs still 
unaccounted for from the war.

    I am pleased you have invited him to appear this morning on behalf 
of our Nation's largest national veterans service organization, The 
American Legion. I have no doubt you will agree with much of John's 
testimony on behalf of his fine organization.

    I thank you, as always, for your continued efforts to resolve those 
issues that still provent the United States and communist Vietnam from 
fully healing the wounds of war.

            With warmest regards,

                                                 Bob Smith,
                                              United States Senate.

                               <greek-d>

      
</pre></body></html>
